<html>
<title> - OVERSIGHT HEARING ON THE IMPLICATIONS OF PRESIDENT OBAMA'S NATIONAL OCEAN POLICY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


      THE IMPLICATIONS OF PRESIDENT OBAMA'S NATIONAL OCEAN POLICY

=======================================================================

                             OVERSIGHT HEARING

                               BEFORE THE

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         Tuesday, May 17, 2016

                               __________

                           Serial No. 114-43

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                              ______________
                              
                              
                       U.S. GOVERNMENT PUBLISHING OFFICE
20-220 PDF                     WASHINGTON : 2016                       
          
__________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0b6c7b644b687e787f636e677b2568646625">[email&#160;protected]</a>  
                   
                    
                    
                    
                    
                    COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Louie Gohmert, TX                    Madeleine Z. Bordallo, GU
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Gregorio Kilili Camacho Sablan, 
John Fleming, LA                         CNMI
Tom McClintock, CA                   Niki Tsongas, MA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Dan Benishek, MI                     Raul Ruiz, CA
Jeff Duncan, SC                      Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Matt Cartwright, PA
Raul R. Labrador, ID                 Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Norma J. Torres, CA
Jeff Denham, CA                      Debbie Dingell, MI
Paul Cook, CA                        Ruben Gallego, AZ
Bruce Westerman, AR                  Lois Capps, CA
Garret Graves, LA                    Jared Polis, CO
Dan Newhouse, WA                     Wm. Lacy Clay, MO
Ryan K. Zinke, MT
Jody B. Hice, GA
Aumua Amata Coleman Radewagen, AS
Thomas MacArthur, NJ
Alexander X. Mooney, WV
Cresent Hardy, NV
Darin LaHood, IL

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                  Sarah Lim, Democratic Chief Counsel
                                 
                                 
                              
                                
                                 ------                                

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                       JOHN FLEMING, LA, Chairman
              JARED HUFFMAN, CA, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Robert J. Wittman, VA                Jim Costa, CA
Tom McClintock, CA                   Ruben Gallego, AZ
Cynthia M. Lummis, WY                Madeleine Z. Bordallo, GU
Jeff Duncan, SC                      Gregorio Kilili Camacho Sablan, 
Paul A. Gosar, AZ                        CNMI
Doug LaMalfa, CA                     Raul Ruiz, CA
Jeff Denham, CA                      Alan S. Lowenthal, CA
Garret Graves, LA                    Norma J. Torres, CA
Dan Newhouse, WA                     Debbie Dingell, MI
Thomas MacArthur, NJ                 Raul M. Grijalva, AZ, ex officio
Rob Bishop, UT, ex officio

                               ---------
                               
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, May 17, 2016............................     1

Statement of Members:
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     1
        Prepared statement of....................................     2
    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona...........................................     6
        Prepared statement of....................................     7
    Huffman, Hon. Jared, a Representative in Congress from the 
      State of California........................................     3
        Prepared statement of....................................     5

Statement of Witnesses:
    Keppen, Dan, Executive Director, Family Farm Alliance, 
      Klamath Falls, Oregon......................................    21
        Prepared statement of....................................    22
    Lanard, Jim, Chief Executive Officer, Magellan Wind, 
      Collingswood, New Jersey...................................    16
        Prepared statement of....................................    17
    Lapp, Meghan, Fisheries Liaison, Seafreeze, Ltd., North 
      Kingstown, Rhode Island....................................    12
        Prepared statement of....................................    14
    Zales, Bob, President, National Association of Charterboat 
      Operators, Hurley, Mississippi.............................     8
        Prepared statement of....................................    10

Additional Materials Submitted for the Record:
    Farr, Hon. Sam, a Representative in Congress from the State 
      of California, prepared statement of.......................    44
    National Ocean Policy Coalition, May 31, 2016 Letter to 
      Chairman Fleming...........................................    45
    Resource Development Council for Alaska, Inc., Anchorage, 
      Alaska, May 13, 2016 Letter to Chairman Fleming............    46
                                     


 
  OVERSIGHT HEARING ON THE IMPLICATIONS OF PRESIDENT OBAMA'S NATIONAL 
                              OCEAN POLICY

                              ----------                              


                         Tuesday, May 17, 2016

                     U.S. House of Representatives

                Subcommittee on Water, Power and Oceans

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
room 1324, Longworth House Office Building, Hon. John Fleming 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Fleming, McClintock, Duncan, 
Gosar, LaMalfa, Graves, Newhouse, Bishop; Huffman, Costa, 
Lowenthal, and Torres.
    Also present: Representative Beyer.
    Dr. Fleming. The Subcommittee on Water, Power and Oceans 
will come to order. The subcommittee meets today to hear 
testimony on an oversight hearing entitled, ``The Implications 
of President Obama's National Ocean Policy.'' We will begin 
with opening statements, starting with myself.

    STATEMENT OF THE HON. JOHN FLEMING, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Dr. Fleming. Today's hearing is about shining some sunlight 
on what has become a non-transparent Administration agenda 
aimed at curtailing multiple-use access in our oceans and 
lands.
    The Administration's so-called National Ocean Policy (NOP) 
is not new to this committee, as this is the sixth oversight 
hearing on this subject. What is also not new is that the 
Administration continues to hide its actions on its 
questionable policy.
    Many questions remain unanswered. For example: Under what 
authority is the President acting to implement this policy? Who 
is funding activities of the National Ocean Council and the 
Regional Planning Bodies? How will this affect Federal and 
state fisheries management and offshore energy development, two 
industries that are vital to Louisiana's economy? How far 
inland does this policy actually reach?
    The first Regional Planning Body will release its plan for 
the Northeastern United States later this month. Yet, scarce 
information has been provided. It will undoubtedly become a 
blueprint for other regional plans that really won't be 
regional, but will be straight out of Soviet-style command-and-
control casting since these bodies consist primarily of Federal 
agencies.
    The Administration was invited to answer our concerns and 
questions related to this hearing. Indeed, the other side of 
the aisle has insisted that we invite more Federal agencies to 
our hearings. In this case, inviting the Director of the 
National Ocean Council was warranted. So, we did just that. If 
you follow the television screen, Majority staff for this 
committee sent an email to Ms. Beth Kerttula on May 5, followed 
by a formal invitation on May 9, and then with another email on 
May 11. There were also a number of phone calls made to Ms. 
Kerttula's office and cell phones in between this 
correspondence.
    There was no response from the Administration until late 
last week. At the end of the day, the Administration is a no-
show, and I have little doubt that is by design. What is the 
Administration hiding? Their absence is telling and indicative 
of this whole effort: share as little information as possible, 
even though their stated goal is ``Federal coordination and 
transparency.''
    We will hear today that coastal and marine spatial 
planning, or what some call Federal zoning, is necessary to 
combat competing uses among the traditional marine industries, 
recreational activity, and offshore development. That is a 
false choice. If you go out into the Gulf of Mexico--and a 
witness here with us today can attest to this--some of our best 
fishing takes place right off of our off-shore oil rigs. These 
different uses are not conflicting, but can be complementary of 
each other in some cases.
    The Administration is aloof of what is going on in the 
Gulf, continually ignores the boundaries of the law, and does 
whatever it pleases until checked by the judicial branch like 
last week with Obamacare, or is held accountable through 
congressional actions.
    We will hear from those potentially impacted today. From 
the Eastern Seaboard, to the Gulf Coast, to the inland farming 
communities of the West, we will listen to strong concerns 
about these vague policies being implemented by unaccountable 
bureaucrats behind the scenes.
    It is unfortunate, but not surprising, that the 
Administration could not be here to listen to these legitimate 
concerns--or should I say would not be here. I look forward to 
hearing from all of you here today.
    This hearing will be the first of a number of actions this 
subcommittee will take to hold the Administration's feet to the 
fire on this gross executive over-reach aimed at curtailing 
multiple-use access to our ocean resources.

    [The prepared statement of Dr. Fleming follows:]
Prepared Statement of the Hon. John Fleming, Chairman, Subcommittee on 
                        Water, Power and Oceans
    Today's hearing is about shining some sunlight on what has become a 
non-transparent Administration agenda aimed at curtailing multiple-use 
access in our oceans and lands.
    The Administration's so-called National Ocean Policy is not new to 
this committee, as this is the sixth oversight hearing on this subject. 
What's also not new is that the Administration continues to hide its 
actions on this questionable policy.

    Many questions remain unanswered. For example:

    <bullet> Under what authority is the President acting to implement 
            this policy?

    <bullet> Who is funding activities of the National Ocean Council 
            and the Regional Planning Bodies?

    <bullet> How will this affect Federal--and state--fisheries 
            management and offshore energy development--two industries 
            that are vital to Louisiana's economy?

    <bullet> How far inland does this policy actually reach?
    The first Regional Planning Body will release its plan for the 
northeastern United States later this month. Yet, scarce information 
has been provided. It will undoubtedly become a blueprint for other 
regional plans that really won't be regional but will be straight out 
of Soviet style command-and-control casting since these bodies consist 
primarily of Federal agencies.
    The Administration was invited to answer our concerns and questions 
related to this hearing. Indeed, the other side of the aisle has 
insisted that we invite more Federal agencies to our hearings. In this 
case, inviting the Director of the National Ocean Council was 
warranted. So, we did just that. If you follow the television screen, 
Majority staff for this committee sent an email to Ms. Beth Kerttula on 
May 5, followed by a formal invitation on May 9, and then with another 
email on May 11. There were also a number of phone calls made to Ms. 
Kerttula's office and cell phones in between this correspondence. There 
was no response from the Administration until late last week. At the 
end of the day, the Administration is a no-show and I have little doubt 
that is by design. Their absence is telling and indicative of this 
whole effort: share as little information as possible even though their 
stated goal is ``Federal coordination and transparency.''
    We will hear today that Coastal and Marine Spatial Planning--or 
what some call ``Federal zoning''--is necessary to combat competing 
uses among traditional marine industries, recreational activity, and 
offshore development. That's a false choice. If you go out in the Gulf 
of Mexico--and a witness here with us today can attest to this--some of 
our best fishing takes place right off of our offshore oil rigs. These 
different uses aren't conflicting, but can be complementary of each 
other in some cases.
    This Administration is aloof of what's going on in the Gulf, 
continually ignores the boundaries of the law and does whatever it 
pleases until checked by the judicial branch like last week with 
Obamacare, or is held accountable through congressional actions.
    We will hear from those potentially impacted today. From the 
Eastern Seaboard, to the Gulf Coast, to the inland farming communities 
of the West, we will listen to strong concerns about these vague 
policies being implemented by unaccountable bureaucrats behind the 
scenes. It's unfortunate--but not surprising--that the Administration 
couldn't be here to listen to these legitimate concerns. I look forward 
to hearing from you all here today.
    This hearing will be the first of a number of actions this 
subcommittee will take to hold the Administration's feet to the fire on 
this gross executive over-reach aimed at curtailing multiple-use access 
to our ocean resources.

                                 ______
                                 

    Dr. Fleming. And I now recognize the Ranking Member, Mr. 
Huffman, for his comments.

   STATEMENT OF THE HON. JARED HUFFMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Huffman. Thank you, and good morning, Mr. Chairman. The 
Majority has called today's hearing to discuss the implications 
of the National Ocean Policy. This hearing, consistent with 
prior hearings on the same subject, continues this implication 
that the policy has somehow been harmful, or is an over-reach. 
And I am certain that my colleagues across the aisle will 
engage in the same type of narrative, that this is 
unprecedented abuse of executive power, the same things that we 
have heard in many identical hearings which the Administration 
has participated in in the past.
    This familiar refrain, unfortunately, ignores the fact that 
the National Ocean Policy, at its core, is nothing more than 
air traffic control for the ocean. It is common sense. This 
policy coordinates the actions of Federal agencies and 
regulated activities at sea and along our coast, so that we can 
reduce user conflict, cut through red tape, and support sound 
decisionmaking with better information and strategic planning. 
It does not create new laws or new regulations. It is not 
Soviet-style command-and-control regulation. It certainly is 
not non-transparent, as was described. It is the antithesis of 
that. It is an attempt to improve communication and 
transparency.
    The policy is appropriate. It is a necessary use of the 
chief executive's authority to direct coordination of executive 
branch agencies. And, in my opinion, President Obama should be 
applauded for building on what was--and this is important to 
remember--a bipartisan action plan in 2004, an action plan that 
was an initiative of the George W. Bush administration.
    The United States and its territories have exclusive 
jurisdiction, economically, over approximately 4.5 million 
square miles of our ocean. These areas are a vital part of our 
economy. They support tens of millions of jobs; contribute 
billions of dollars annually to our national economy and 
coastal communities, which make up about 18 percent of our 
country's land area; and are home to nearly 120 million people, 
37 percent of our Nation's population. And these numbers are 
steadily increasing.
    These growing uses within our ocean and coastal areas are 
inherently going to put significant pressure on our natural 
resources. So, planning is needed to help ensure that 
everything works together, that we have healthy, natural 
resources, and continued economic growth in these areas.
    Instead of taking the opportunity to ask how we can 
continue to support the growth of our ocean and coastal 
economies, the Majority will likely accuse the President of 
lacking authority to implement the ocean policy, despite the 
fact--and this has been explained repeatedly--that there are no 
fewer than 55 separate laws and regulations that speak to the 
need and the requirement for adequate ocean planning.
    Six years after the Executive Order created the policy, 
some on the other side of the aisle still refuse to accept the 
facts: the fact that it does not over-ride state water law, for 
example, does not restrict use of private property in any way, 
does not regulate the raindrops on your roof, and so on.
    Contrary interpretations are potentially deliberate 
attempts to mislead the public, and have long ago been debunked 
as such, including through several hearings in the Natural 
Resources Committee.
    I had hoped that instead of revisiting this tired argument, 
we might hold a hearing on any one of several really important 
timely issues facing communities that many of us represent. I 
have made formal requests in this Congress for hearings on many 
such issues, including improvements to agricultural and 
municipal water management and conservation in the face of this 
persistent and historic drought in California; an examination 
of current drought climate and weather science to help us 
understand the long-term prospects for water shortages; the 
impacts of ocean acidification on aquaculture and ocean 
ecosystems; and how to incorporate climate science into marine 
fisheries management.
    Unfortunately, none of these hearing requests have been 
granted. We have not had conversations on these subjects. 
Instead, today, we are trying to manufacture some controversy 
out of a completely legal and, frankly, non-controversial good 
government initiative.
    If we really must revisit the National Ocean Policy, how 
about talking about how the ocean-related economy has grown at 
a faster pace than the national economy since 2008. We should 
be talking about how increasing support for chronically 
underfunded coastal and marine resources management and ocean 
science programs could support further economic growth, and how 
addressing the impacts of climate change on fisheries, 
aquacultures, agriculture, and ocean ecosystems could actually 
boost income and save jobs in coastal communities, including 
those that I represent.
    We should be talking about how the National Ocean Policy 
can connect all of these things in a more coherent policy and 
permitting framework, and ensure that all who benefit from 
America's oceans can continue to do so in an economically and 
environmentally sustainable way.
    I thank the witnesses for joining us today, and I look 
forward to our conversation.
    [The prepared statement of Mr. Huffman follows:]
     Prepared Statement of the Hon. Jared Huffman, Ranking Member, 
                Subcommittee on Water, Power, and Oceans
    Thank you, and good morning, Mr. Chairman. The Majority has called 
today's hearing to discuss the ``implications'' of the National Ocean 
Policy. And this hearing, consistent with prior hearings on this 
subject, continues this implication that the Policy has somehow been 
harmful or is an over-reach, and I'm certain that my colleagues across 
the aisle will engage in the same type of narrative that this is 
unprecedented abuse of executive power, the same things that we've 
heard in many identical hearings which the Administration has 
participated in in the past.
    So, this familiar refrain unfortunately ignores the fact that the 
National Ocean Policy at its core is nothing more than air traffic 
control for the ocean. It's common sense. This policy coordinates the 
actions of Federal agencies, regulated activities, at sea and along our 
coast so that we can reduce user conflicts, so that we can cut through 
red tape, support sound decisionmaking with better information and 
strategic planning. It does not create new laws or new regulations. It 
is not Soviet style command and control regulation. It certainly is not 
non-transparent as described. It's the antithesis of that. Its intent 
is to improve communication and transparency. Policy is appropriate. 
It's a necessary use of the chief's executive authority to direct 
coordination of executive branch agencies, and in my opinion, President 
Obama should be applauded for building on what was, and this is 
important to remember, a bipartisan action plan in 2004. An action plan 
that was an initiative of Bush administration.
    Now the United States and its territories have an exclusive 
jurisdiction economically over approximately 4\1/2\ million square 
miles of our ocean. These areas are a vital part of our economy. They 
support tens of millions of jobs; contribute billions of dollars 
annually to our national economy and coastal communities, which make up 
about 18 percent of our country's land area; are home to nearly 120 
million people, 37 percent of our Nation's population, and these 
numbers are steadily increasing. These growing uses within our ocean 
and coastal areas are inherently going to put significant pressure on 
our natural resources, and so planning is needed to help ensure 
everything works together, that we have healthy natural resources and 
continued economic growth in these areas.
    Instead of taking the opportunity to ask how we can continue to 
support the growth of our ocean and coastal economies, the Majority 
will likely accuse President Obama of lacking authority to implement 
the Ocean Policy, despite the fact, and this has been explained 
repeatedly that there are no fewer than 55 separate laws and 
regulations that speak to the need and the requirement for adequate 
ocean planning. Six years after the Executive Order created the Policy, 
some on the other side of the aisle still refuse to accept the facts. 
The fact that it does not over-ride state water laws, for example, does 
not restrict use of private property in any way, does not regulate the 
raindrops on your roof and so on. Contrary interpretations are 
potentially deliberate attempts to mislead the public and have long ago 
been debunked as such, including several hearings in the Natural 
Resources Committee. Now I had hoped that instead of revisiting this 
tired argument, we might hold a hearing on any one of several really 
important timely issues facing communities including the one I 
represent.
    I've made a formal request in this Congress for hearings on many 
such issues including improvements to agricultural and municipal water 
management conversation in the face of this persistent and historic 
drought in California, an examination of current drought climate and 
weather science to help us understand the long term prospects for water 
shortages, the impact of ocean acidification on aquaculture and ocean 
ecosystems and how to incorporate climate science in the marine 
fisheries management.
    Unfortunately, none of these hearing requests have been granted. We 
have not had conversations on these subjects. And instead, today, we 
are trying to manufacture some kind of controversy out of the 
completely legal and, frankly, non-controversial good government 
initiative.
    If we really must revisit the National Ocean Policy, how about 
talking about how the ocean related economy has grown at a faster pace 
than the national economy since 2008? We should be talking about how 
increasing support for chronically underfunded coastal and marine 
resources management and ocean science programs could support further 
economic growth and how addressing the impacts of climate change on 
fisheries, aquacultures, and ocean ecosystems could boost income and 
save jobs in coastal communities, including those that I represent. And 
we should be talking about how the National Ocean Policy can connect 
all of these things in a more coherent policy permitting framework and 
ensure that all who benefit from America's oceans can continue to do so 
in an economically and environmentally sustainable way.

    I thank the witnesses for joining us today. I look forward to our 
conversation.

                                 ______
                                 

    Dr. Fleming. I thank the gentleman and now recognize Dr. 
Gosar for his comments.

   STATEMENT OF THE HON. PAUL A. GOSAR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Dr. Gosar. Thank you, Chairman, for calling today's 
hearing. We will hear a lot today about our Nation's oceans and 
the impacts that the President's National Ocean Policy might 
have on those who want to enjoy and protect the boundary of our 
saltwater resources. We have before us witnesses from Rhode 
Island and Mississippi, who will rightly discuss their concerns 
that the working men and women, recreationalists and others, 
could be negatively impacted by this policy.
    Since I represent parts of a land-locked state, one 
wouldn't immediately think that Arizona would care about what 
impacts our Nation's offshore resources. But, we Arizonans like 
our seafood and our domestic energy.
    Just as importantly, Arizona has thousands of miles of 
reservoir shoreline at Lake Havasu, Lake Mead, Roosevelt Lake, 
and others, created or managed by the Bureau of Reclamation, 
the State, and the Salt River Project, just to name a few. That 
shoreline, and the people who depend on the water within those 
reservoirs, could very well be roped into the federally-based 
National Ocean Policy.
    Don't take my word for it, though. Look at the Appendix to 
the Implementation Plan for the following items: (1) 
restoration of 100,000 acres of wetlands and uplands; (2) 
developing measures to evaluate national forest best management 
practices; and (3) studying impacts from land-based sources of 
pollution.
    In addition, we have Mr. Dan Keppen, Executive Director of 
the Family Farm Alliance, which includes a number of Arizona's 
irrigation districts, testifying that the policy's regional 
bodies could ``dramatically increase the role of Federal 
agencies on inland rivers and adjacent land uses . . . at a 
time when other hydropower dams are under ongoing litigation by 
certain environmental groups.''
    As he will testify, the policy's ecosystem-based management 
scheme ``involves vague and undefined policies that we know 
from experience can be used by critics of irrigated agriculture 
as a basis for lawsuits to stop or delay federally permitted 
activities.'' Of course, the Administration may challenge this, 
but they did not even bother to show up today.
    This policy is another chapter in the death-by-a-thousand-
cuts strategy this Administration employs against the people 
and communities who depend on our natural resources on land and 
under water. Federal zoning on both land and water creates 
uncertainty, which in turn breeds litigation. It is a clever 
way to impose a web of Federal layers of bureaucracy--a recipe 
for stagnation.
    On its way out the door, the Administration is creating 
far-reaching tentacles that will only harm existing uses and 
makes it nearly impossible to permit future traditional uses 
with some remote nexus from the oceans, even in the Grand 
Canyon State.
    I thank the witnesses for their courage to ask the tough 
questions and for their transparency, which is sorely lacking 
from the ``most transparent administration in history.'' I look 
forward to working with you and my colleagues on getting some 
answers and clarity on this notorious policy.
    I yield back.
    [The prepared statement of Dr. Gosar follows:]
   Prepared Statement of the Hon. Paul A. Gosar, a Representative in 
                   Congress from the State of Arizona
    Thank you for holding today's hearing.

    We will hear a lot today about our Nation's oceans and the impacts 
that the President's National Ocean Policy might have on those who want 
to enjoy and protect the bounty of our saltwater resources. We have 
before us witnesses from Rhode Island and Mississippi who will rightly 
discuss their concerns that the working men and women, recreationalists 
and others could be negatively impacted by this policy.
    Since I represent parts of a land-locked state, one wouldn't 
immediately think that Arizona would care about what impacts our 
Nation's offshore resources. But, we Arizonans like our seafood and our 
domestic energy.
    Just as importantly, Arizona has thousands of miles of reservoir 
shoreline at Lake Havasu, Lake Mead, Roosevelt Lake and others created 
or managed by the Bureau of Reclamation, the State and the Salt River 
Project, to name a few. That shoreline--and the people who depend on 
the water within those reservoirs--could very well be roped into the 
federally-based National Ocean Policy.

    Don't take my word for it though. Look at the Appendix to the 
Implementation Plan for the following items:

    <bullet> restoration of 100,000 acres of wetlands and uplands;

    <bullet> developing measures to evaluate National Forest Best 
            Management Practices; and

    <bullet> studying impacts from land-based sources of pollution.

    In addition, we have Mr. Dan Keppen, Executive Director of the 
Family Farm Alliance--which includes a number of Arizona's irrigation 
districts--testifying that the policy's Regional Planning Bodies could 
``dramatically increase the role of Federal agencies on inland rivers 
and adjacent land uses . . . at a time when other hydropower dams are 
under ongoing litigation by certain environmental groups.'' As he will 
testify, the policy's ecosystem-based management scheme ``involves 
vague and undefined and policies that we know from experience can be 
used by critics of irrigated agriculture as the basis for lawsuits to 
stop or delay federally permitted activities.'' Of course, the 
Administration may challenge this, but they didn't even bother to show 
up today.
    This policy is another chapter in the death-by-a-thousand-cuts 
strategy this Administration employs against the people and communities 
who depend on our natural resources on land and under water. Federal 
zoning on both land and water creates uncertainty, which in turn breeds 
litigation. It's a clever way to impose a web of Federal layers of 
bureaucracy--a recipe for stagnation.
    On its way out the door, the Administration is creating far-
reaching tentacles that will only harm existing uses and make it nearly 
impossible to permit future traditional uses with some remote nexus 
from the oceans--even in the Grand Canyon State.
    I thank for the witnesses for their courage to ask the tough 
questions and for their transparency, which is sorely lacking from the 
``most transparent administration in history.'' I look forward to 
working with you and my colleagues on getting some answers and clarity 
on this notorious policy.

                                 ______
                                 

    Dr. Fleming. I thank the gentleman. We are now ready for 
witness testimony.
    I will explain how the lights work. You have 5 minutes for 
your oral testimony. The written testimony will be entered into 
the record, no matter how large it is. So, you will be under a 
green light for the first 4 minutes. Then, when it turns 
yellow, be thinking about wrapping up. If you have not finished 
by the time it is red, please wrap up as soon as possible. 
Otherwise, you will be gaveled down so we can keep things 
moving, of course.
    We have introductions today. First, Mr. Bob Zales, 
President of the National Association of Charterboat Operators 
based out of Hurley, Mississippi; Ms. Meghan Lapp, Fisheries 
Liaison for Seafreeze, Ltd., which is in North Kingstown, Rhode 
Island; Mr. Jim Lanard, Chief Executive Officer of Magellan 
Wind, based out of Collingswood, New Jersey; and then Mr. Dan 
Keppen, Executive Director of the Family Farm Alliance, based 
out of Klamath Falls, Oregon.
    How large is Klamath Falls, Oregon?
    Mr. Keppen. About 50,000.
    Dr. Fleming. About 50,000? The reason why that catches my 
attention is about a century ago a branch of my ancestors 
followed the timber industry to Klamath Falls, Oregon, which is 
all I know about it. But if you know any Flemings in Klamath 
Falls, they are my cousins.
    Mr. Keppen. I do. Some of them are turf farmers.
    [Laughter.]
    Dr. Fleming. Yes. Well, I come from a long line of dirt 
farmers.
    As I mentioned in the opening statement, the Director of 
the National Ocean Policy, Ms. Beth Kerttula, was invited to 
testify today, but unfortunately, did not accept our 
invitation.
    I now recognize Mr. Zales for his testimony.

STATEMENT OF BOB ZALES, PRESIDENT, THE NATIONAL ASSOCIATION OF 
           CHARTERBOAT OPERATORS, HURLEY, MISSISSIPPI

    Mr. Zales. Chairman Fleming, Ranking Member Huffman, and 
members of the subcommittee, my name is Robert F. Zales, II, 
and I am appearing today on behalf of the National Association 
of Charterboat Operators. I wish to thank you for your kind 
invitation to present testimony on the implications of 
President Obama's National Ocean Policy.
    H.R. 21, Oceans 21, the precursor to the National Ocean 
Policy, was introduced to the House in the mid-2000s. It never 
had broad public support, and thanks to the wisdom of our 
Representatives and Senators was never approved by Congress. 
Due to rejection of the proposed legislation and no action by 
Congress, on July 19, 2010, President Obama signed and executed 
Presidential Executive Order 13547, creating the National Ocean 
Policy and resulting National Ocean Council.
    Now, almost 6 years later, this one stroke of a pen that 
created an unfunded mandate, has provided for the creation of 
the National Ocean Policy Implementation Plan and led to the 
creation of Regional Planning Bodies (RPBs) in the Northeast, 
Mid-Atlantic, Pacific, Caribbean, and, most recently, the West 
Coast.
    Thankfully, we have no functioning RPB in the Gulf of 
Mexico region, and do not need one. The last thing we need in 
the Gulf, and any region, is the creation of a new government 
body and a process that the Federal Government itself has 
likened to ocean zoning, neither of which have been authorized 
by Congress, that is trying to solve a problem that does not 
exist.
    Apparently, Mr. Chairman, you and your colleagues are not 
necessary to the proper management and care of our natural 
marine and land-based resources, as Congress has been left 
totally out of the NOP process.
    Under the coastal and marine spatial planning process, RPBs 
are comprised solely of government officials who are charged 
with developing a zoning plan. No private-sector stakeholders 
are allowed to be included.
    Why do we need another bureaucratic entity and overlaid 
costs, costing untold sums of taxpayer dollars on top of all 
those already in existence to provide more management? Few, if 
any, Federal legislators know where the funding for the NOP 
comes from now, and who will control the funding and oversight 
in the future.
    In the Gulf, as well as all areas of the country, 
recreational and commercial fishermen are currently over-
regulated, and negatively impacted in every arena. The fishing 
industry, both recreational and commercial, cannot absorb any 
more regulatory burden.
    The NOP process has the potential and is likely to create 
new and expanded regulatory requirements in addition to those 
we already have, creating more regulatory burdens and 
increasing costs on our businesses.
    In the Final Recommendations of the Interagency Ocean 
Policy Task Force July 19, 2010, page 30 states, ``The plans 
would be adaptive to allow for modification and addition of new 
actions based on new information or changing conditions. Their 
effective implementation would also require clear and easily 
understood requirements and regulations, where appropriate, 
that include enforcement as a critical component.''
    While several lead agencies have stated the NOP has no 
regulatory authority, it is clear that the NOP will be adding 
new regulatory impacts, including potential regulations on 
already overly regulated industries and activities.
    Fishing activity and boating are at an all-time low. 
Government requirements and expenses keep growing. Allowing the 
NOP to continue as is will only continue to reduce this fishing 
and boating activity, which will result in lost jobs, lost 
wages, and lost taxes, which will harm families in our 
communities. Furthermore, the Gulf has a decades-long history 
of successful co-existence and environmental stewardship of our 
natural resources by commercial and recreational fishermen. Our 
historical experience reflects that we do not need this 
unauthorized process to create problems where none exist.
    The foundational recommendations adopted by the NOP noted 
``these recommendations may create a level of uncertainty and 
anxiety among those who rely on these resources, and may 
generate questions about how they align with existing 
processes, authorities, and budget challenges.'' Six years 
later, that uncertainty and anxiety is higher than ever, and 
those questions are more significant today.
    The unforced error created by a stroke of the pen continues 
to needlessly drain resources and energy away from what our 
industries should and need to be focused on, which is 
generating economic activity and providing recreational and 
commercial opportunities and outlets to enjoy our natural 
resources, all under the oversight of responsible regulation as 
authorized by Congress.
    Mr. Chairman, this concludes my testimony. Again, I totally 
appreciate the invitation and opportunity to provide you and 
the subcommittee with this information. I will be pleased to 
respond to any questions.
    [The prepared statement of Mr. Zales follows:]
 Prepared Statement of Capt. Robert F. Zales, II, President, National 
                  Association of Charterboat Operators
    Chairman Fleming, Ranking Member Huffman, and members of the 
subcommittee, my name is Robert F. Zales, II and I am appearing today 
on behalf of the National Association of Charterboat Operators (NACO). 
I wish to thank you for your kind invitation to present testimony on 
the ``The Implications of President Obama's National Ocean Policy.''
    NACO is a non-profit 501(c)(6) association representing charterboat 
owners and operators across the United States including the Great 
Lakes. I also serve on the Board of several other recreational fishing 
associations as well as the National Ocean Policy Coalition. I have 
been involved in fishing for over 50 years with over 25 years of that 
time involved with local, state, and Federal fishery management 
providing expert testimony, serving on a host of advisory panels, and 
working to ensure that reason and common sense are applied to the 
management of our natural resources.
    H.R. 21 (Oceans 21), the precursor to the National Ocean Policy, 
was introduced to the House in the mid 2000s. It never had broad public 
support and thanks to the wisdom of our Representatives and Senators 
was never approved by Congress. Due to rejection of the proposed 
legislation and no action by Congress, on July 19, 2010, President 
Obama signed and executed Presidential Executive Order 13547 creating 
the National Ocean Policy and resulting National Ocean Council. I 
provided my 1 minute of testimony at one of the first public 
announcement meetings held in New Orleans, LA a few weeks after the EO 
was executed. Now, almost 6 years later, this one stroke of a pen that 
created an unfunded mandate has provided for the creation of the 
National Ocean Policy Implementation Plan and led to the creation of 
Regional Planning Bodies (RPB) in the Northeast, Mid-Atlantic, Pacific, 
Caribbean, and most recently the West Coast. Thankfully, we have no RPB 
in the Gulf of Mexico Region and do not need one.
    The National Ocean Policy Implementation Plan calls for the RPBs to 
adopt a comprehensive national ecosystem-based management principal, 
implement comprehensive, integrated, ecosystem-based coastal and marine 
spatial planning and management, and a host of other management 
objectives. All of these proposals are already being researched and in 
some cases proposed under the Magnuson Stevens Fishery and Conservation 
Management Act and other Federal agencies management efforts. The last 
thing we need in the Gulf, and any Region, is the creation of a new 
government body and a process that the Federal Government itself has 
likened to Ocean Zoning--neither of which have been authorized by 
Congress--that is trying to solve a problem that does not exist. 
Apparently, Mr. Chairman, you and your colleagues are not necessary to 
the proper management and care of our natural marine and land based 
resources as Congress has been left totally out of the NOP process. We 
recently heard of the latest effort by 33 environmental NGOs forming 
the ``High Seas Alliance'' to push the United Nations to move forward 
with the development of an international legally binding instrument 
under the U.N. Convention of the Law of the Sea on the conservation and 
sustainable use of marine biological diversity of areas beyond national 
jurisdiction. As you can fully understand we are seriously concerned 
about the continued and ever growing efforts by enviro NGOs to 
circumvent the normal operation and regulatory activity of Congress.
    The current NOP process, has from day one, suggested that the 
Nation's stakeholders have been actively involved and able to provide 
input. Reality shows this is blatantly untrue. The fast tracking 
underground, lack of adequate public notice, and haphazard manner where 
vital stakeholders are left out by the Administration is clear 
indication they want this policy to be fully implemented before anyone 
is aware of the real impacts of the proposed policy. One has to wonder, 
if a policy is so great then why has Congress been left out of the 
process and why do the citizens of this country know so little?
    Under the Coastal and Marine Spatial Planning process there are 
nine (9) Regional Planning Bodies proposed that will include membership 
of Federal, state, and tribal representatives, no fishing or other 
stakeholder representatives are to be included. We already have eight 
(8) Regional Fishery Management Councils and the agencies of NOAA/NMFS 
along with EPA, the U.S. Coast Guard, the Fish and Wildlife Service, 
the Bureau of Ocean Energy Management, three (3) Interstate Fishery 
Commissions, coastal State Resource Management Agencies, and a host of 
others providing management of our resources. Why do we need another 
bureaucratic entity costing taxpayers millions of dollars on top of all 
of these to provide more management? Few Federal legislators know where 
the funding for the NOP comes from now, who will control the funding 
and oversight in the future?
    In the Gulf, as well as all areas of the country, Recreational and 
Commercial Fishermen are currently over regulated and negatively 
impacted in every arena. No fishing seasons, overly restrictive bag 
limits and quotas, closed areas to boating and fishing, the Endangered 
Species Act, the Clean Water Act, EPA Engine Emission regulations, 
Marine Protected Areas, Marine Mammal Interactions, gear restrictions, 
U.S. Coast Guard regulations that include a host of vessel safety 
requirements, specific manning requirements, life saving requirements, 
licensing, drug and alcohol testing, medical review process, navigation 
restrictions, FCC radio licensing and requirements, and more. Every 
agency and every requirement costs fishermen and our communities 
dollars.
    The Fishing Industry (recreational and commercial) cannot absorb 
any more regulatory burden. Many fishermen have left fishing because 
they have simply been regulated out of business. The costs and 
regulatory burdens have driven private recreational fishermen to find 
other forms of recreation. They have forced the recreational for-hire 
owner out of business because the consumer is unwilling to continue to 
pay more for the government requirements as the costs of regulations 
cannot be passed on. Commercial fishermen are being forced out of 
business because the profit margins are not sustainable. All of this 
also impacts the support businesses such as tackle shops, boat 
builders, and seafood dealers.
    The NOP process has the potential and is likely to create new and 
expanded regulatory requirements in addition to those we have, creating 
more regulatory burdens and expanding costs to our businesses. 
According to information provided at a past hearing, then 
Representative Steve Southerland, found in the Final Recommendations of 
the Interagency Ocean Policy Task Force, July 19, 2010 on page 30, it 
states, ``The plans would be adaptive to allow for modification and 
addition of new actions based on new information or changing 
conditions. Their effective implementation would also require clear and 
easily understood requirements and regulations, where appropriate, that 
include enforcement as a critical component.'' While several lead 
agency heads have stated the NOP has no regulatory authority, it is 
clear that the NOP will be adding new and expanded regulations, without 
any rulemaking authority, on already overly regulated industries and 
activities.
    Fishing activity and boating are at an all time low. Government 
requirements and expense keep growing and allowing the NOP to continue 
without congressional oversight will only continue to reduce this 
fishing and boating activity which will result in lost JOBS, lost 
WAGES, and lost TAXES which will harm families and our communities. The 
NOP does nothing but add new layers of unaccountable Federal Government 
employees while doing nothing to enhance our economy or our resources. 
Everything the NOP proposes is already being implemented, proposed, or 
thought of.
    In addition the NOP will continue the strangulation of our Gulf 
offshore oil and gas industries by further restricting exploration, 
mining, and production of these resources. This further hampers 
fishermen due to the ever increasing fuel costs. In the Gulf of Mexico 
the expanded effort to remove non-productive oil and gas platforms that 
have become essential fish habitat is a growing problem when the NOAA/
NMFS requires sustainable fisheries. How do you sustain a resource 
without habitat?
    The Gulf has a decades long history of successful coexistence and 
environmental concern of our natural resources by commercial and 
recreational fishermen. Our historical experience reflects that we 
don't need this unauthorized process to create problems where none 
exists. In addition to the negative impacts on our Gulf fishing 
industries and in other regions where RPBs have been established, in 
the Gulf we are concerned with Federal members who were identified to 
serve on a Gulf RPB in 2012, although the five Gulf states did not 
agree to participate. Our concern is amplified due to the fact that the 
NOP states that Federal entities are to implement marine planning in 
regions even where states decide not to participate.
    The foundational recommendations adopted by the NOP noted ``these 
recommendations may create a level of uncertainty and anxiety among 
those who rely on these resources and may generate questions about how 
they align with existing processes, authorities, and budget challenges. 
Six years later that uncertainty and anxiety is higher than ever and 
those questions are more significant today. The unforced error created 
by a stroke of the pen continues to needlessly drain resources and 
energy away from what our industries should and need to be focused on 
which is generating economic activity and providing recreational and 
commercial opportunities and enjoyment of our natural resources, all 
under the oversight of responsible regulation as authorized by 
Congress. If the Federal Government wants to help fix a problem it 
should bring industry to the table as an equal partner to work together 
to address the regulatory maze that is strangling our ability to 
operate, not create unnecessary uncertainty and anxiety by creating 
government only entities and regulatory overlays by Executive Order.
    Mr. Chairman, this concludes my testimony. Again, I truly 
appreciate the invitation and opportunity to provide you and the 
committee with this information. I will be pleased to respond to any 
questions.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Zales. The Chair now recognizes 
Ms. Lapp for 5 minutes.

 STATEMENT OF MEGHAN LAPP, FISHERIES LIAISON, SEAFREEZE, LTD., 
                 NORTH KINGSTOWN, RHODE ISLAND

    Ms. Lapp. Mr. Chairman, Ranking Member, and members of the 
subcommittee, thank you for the opportunity to testify before 
you today. My name is Meghan Lapp and I represent Seafreeze, 
Ltd., the largest producer and trader of sea frozen fish on the 
U.S. East Coast.
    I am here today to convey that the impacts of President 
Obama's National Ocean Policy are already being implemented 
through the Fishery Management Councils and NOAA science and 
policy, even prior to any finalized regional ocean action plan. 
Rather than detail every specific instance, I would like to 
relate my personal experiences thus far, and our increased 
concerns as the NOP process moves forward.
    NOAA science is the driving force of fisheries management, 
and has embraced the fundamental shift to ecosystem-based 
management embodied in the NOP. Therefore, regulatory bodies 
such as the Regional Fishery Management Councils are forced to 
embrace this approach. As a result, the New England Council now 
has an Ecosystem-Based Fisheries Management Committee, which is 
conducting an experimental fishery ecosystem plan, as is 
outlined in the Policy's Implementation Plan, to implement 
pilot projects that use an ecosystem-based approach.
    Similarly, the Mid-Atlantic Council now has an Ecosystem 
and Ocean Planning Committee. As an advisory panel member to 
this committee, I have been asked to give input on policy 
toward industrial ocean use, habitat impacts, and potential 
trade-offs, much as is discussed in the Task Force 
Recommendations on Coastal and Marine Spatial Planning. While 
incorporating ecosystem considerations in fishery management is 
not a new concept, it is only recently that directed management 
efforts have been focused on implementation. While the NOP is 
touted as non-regulatory, it is clearly controlling the agenda 
of Federal agencies and regulatory bodies, which will result in 
new regulations.
    One serious concern from a fishery stakeholder perspective 
is the NOP's commitment to the conservation of important 
ecological areas, such as areas of high productivity. As part 
of data collection for the NOP, confidential fisheries data has 
been compiled into public charts, detailing where concentrated 
commercial fishing activity currently takes place, a.k.a. areas 
of high productivity.
    For the sake of consistency with NOP conservation, does 
this mean we could lose access to our fishing grounds? 
According to the NOP Task Force, the specific questions and 
concerns of those who rely on marine resources will be 
addressed as implementation progresses. I find this outrageous.
    My experience at a Northeast Regional Planning Body meeting 
does not serve to ease our concerns. It was very apparent from 
the discussion that the push was to get the RPB plan done at 
all costs by 2016.
    After the public comment period, during which I raised real 
fisheries issues, one RPB member stated that the short timeline 
had reduced the RPB's ability to be transparent and conduct 
thorough stakeholder engagement, and that they were just going 
to create a plan because of a timeline without concerns for 
credibility. To this, one of the co-chairs responded, ``We're 
going to produce a plan, and it's going to get adopted.'' The 
NOC Director quietly nodded. As a stakeholder, this tells me 
that our interests do not really matter.
    Another comment that, ``At the end of 16 months you want to 
make this so hard to shut off,'' tells me that the regional 
plan is designed to be railroaded through, regardless of future 
objections.
    The Administration's top-down approach on NOP 
implementation is apparent in the recent marine monument 
discussion. Last year, an unexpected email announcement was 
distributed via NOAA's Listserv. It gave stakeholders a 2-week 
notice that the Administration was considering designating 
several deep sea canyons as marine national monuments for 
protection of deep sea corals.
    This initiative came soon after the Mid-Atlantic Council 
had completed a deep sea corals amendment, which included 
extensive stakeholder input, including an interactive workshop 
to draw boundary lines. It was also the same time that the New 
England Council intended to resume work on its own deep sea 
corals amendment in that very area.
    The canyon areas under consideration as marine monuments 
are extremely productive, and have great economic importance to 
Seafreeze.
    Holding just one public meeting to allow for stakeholder 
input, NOAA released a comment portal through which 
stakeholders were directed to submit further comment. 
Attempting to protect our interests, I submitted not only 
written comments, but proprietary charts, documenting our 
vessels' fishing activity in the area to argue that our fishing 
grounds needed to be kept open.
    When I inquired, no one at NOAA could tell me how long the 
comment period would remain open. Neither could anyone at the 
agency inform me how or why this discussion was initiated, if 
there was any specific process being followed, who would be 
reviewing our comments, who would be presenting them, and to 
whom. It was like a black hole; we had no idea what was going 
on.
    This is the antithesis of transparency and how decisions 
should be made. We still live in the uncertainty of what may 
happen. Since NOP implementation, we have had less clarity and 
input into our future, not more.
    Thank you, and I am happy to answer any questions.
    [The prepared statement of Ms. Meghan Lapp follows:]
  Prepared Statement of Meghan Lapp, Fisheries Liaison, Seafreeze Ltd.
    Mr. Chairman, Ranking Member, and members of the subcommittee, 
thank you for the opportunity to testify before you today. My name is 
Meghan Lapp, and I represent Seafreeze, Ltd., the largest producer and 
trader of sea frozen fish on the U.S. East Coast. We operate two 
freezer vessels out of Davisville, RI, that fish from the Canadian line 
to North Carolina.
    I am here today to tell you that the implications of President 
Obama's National Ocean Policy (NOP) are already being felt and 
implemented through the Fishery Management Councils and NOAA/NMFS 
science and policy, even prior to any finalized regional Ocean Action 
Plan by a Regional Planning Body. Rather than detail every specific, I 
would like to relate my personal experiences thus far, and the 
increased concerns I have as the process moves forward.
    NOAA science is the driving force of fisheries management, and has 
embraced the ``fundamental shift'' to ecosystem-based management. 
Therefore, fisheries regulatory bodies such as the Fishery Management 
Councils have also been forced to embrace this fundamental shift. As a 
result, the New England Fishery Management Council now has an 
``Ecosystem-Based Fisheries Management Committee,'' which is conducting 
an eFEP (experimental Fishery Ecosystem Plan), much as is outlined in 
the National Ocean Policy Implementation Plan, i.e. to ``implement 
pilot projects that use an ecosystem-based approach'' (p. 20; ``Pilot 
projects will . . . enable decisionmakers and managers to understand 
how ecosystem-based management can be most effectively implemented at 
regional scales . . .''). The Mid-Atlantic Fishery Management Council 
now has an Ecosystem and Ocean Planning Committee, of which I am an 
Advisory Panel member. To date as an AP member, I have been asked to 
give input on policy toward industrial ocean use, as well as habitat 
impacts/policy, and potential trade-offs, much as is discussed in the 
Task Force Recommendations on Coastal and Marine Spatial Planning. 
While incorporating ecosystem considerations in fishery management is 
not a new concept, it has only been recently that directed management 
efforts have been concentrated on implementation. While the National 
Ocean Council and National Ocean Policy are touted as non-regulatory, 
they are clearly controlling the agenda of regulatory agencies and 
bodies. This will result in regulations to the end user.
    One serious concern from a fishery stakeholder perspective is the 
policy's commitment to the ``reduction of cumulative impacts from human 
uses on marine ecosystems''(Task Force, p. 33) and the ``conservation 
of important ecological areas, such as areas of high productivity'' 
(Task Force, p. 44). Currently, as part of data collection for the 
National Ocean Policy, confidential fisheries data has been complied 
into public charts that detail where concentrated commercial fishing 
activity takes place, a.k.a. areas of high productivity. For the sake 
of NOP ``conservation,'' does that mean we will lose access to our 
fishing grounds? (Will state or Federal Fishery Management Plans be 
required to close these areas, due to the fact that NOAA, which must 
comply with these Task Force Recommendations, has the final say on 
FMPs? And that the States and Fishery Management Councils on the 
Regional Planning Bodies will be bound by RPB Plans? The Northeast 
Regional Planning Body has a chart on its Web page that states: 
``Regulatory: Use of Ocean Plan Data in NEPA and regulatory 
processes,'' and documents containing the Task Force mandate as well as 
potential corresponding regulations for fishery management.) According 
to the Task Force, the specific questions and concerns of those who 
rely on marine resources will be addressed ``as implementation 
progresses'' (Task Force, p. 9). I find this outrageous.
    My experience at a Northeast Regional Planning Body (RPB) meeting 
does not serve to ease my concerns. It was very apparent from the 
discussion that the push was to get the RPB Plan done at all costs by 
2016. After the public comment period during which I raised real 
fisheries issues with the process, data, and impacts to fisheries from 
both an equity and ecological perspective, one RPB member stated that 
the short timeline had reduced the RPB's ability to be transparent and 
do stakeholder engagement, and that they were just going to create a 
plan because of a timeline without the credibility needed. To this, one 
of the Co-Chairs responded, ``We're going to produce a plan and it's 
going to get adopted'' (by the NOC), to which the NOC Director 
responded by nodding. As a stakeholder, this tells me that my interests 
don't matter and that the only goal is implementation by 2016. Another 
comment that ``at the end of 16 months you want to make this so hard to 
shut off'' tells me that the Plan is designed to be railroaded through 
regardless of future objections.
    The Administration's top down approach cannot be made clearer than 
through the recent Marine Monument discussion. Last year, an unexpected 
email announcement went out over NOAA's Greater Atlantic Regional 
Fisheries Office listserve. It gave stakeholders a 2-week notice that 
there was consideration by the Administration to designate several deep 
sea canyons as Marine National Monuments, one reason of which was 
protection of deep sea corals. This came soon after the Mid-Atlantic 
Fishery Management Council had completed a Deep Sea Corals Amendment, 
which included extensive stakeholder input, including an interactive 
workshop to draw boundary lines. (Seafreeze was a participant in this 
workshop.) It was also right about the time when the New England 
Fishery Management Council intended to resume work on its own Deep Sea 
Corals Amendment in that very area, during which stakeholders expect a 
similar interactive process. Many of the environmental NGOs who had 
taken credit for collaboration in the Mid-Atlantic workshop were among 
those championing a National Monument designation and a bypassing of 
the New England Council process. The canyon areas under consideration 
as Marine Monuments are extremely productive and of great economic 
importance to Seafreeze. Holding just one public meeting to allow for 
stakeholder input, NOAA released a comment portal through which to 
submit further comment. (The original meeting notice stated that 
comments through the portal had to be submitted by the date of the 
meeting. The day after the meeting, a notice was released that asked 
for further comments to be sent ``as soon as possible.'') In a frenzied 
attempt to protect Seafreeze's interests, I submitted not only written 
comments but proprietary/confidential charts documenting our vessels' 
fishing activity in the area as an argument that our fishing grounds 
needed to be kept open. When I asked, no one at NOAA could tell me how 
long the comment period would remain open. Neither could anyone at the 
agency inform me how or why this discussion was initiated (whether 
executive request, response to petitions, etc), if there was any 
specific process being followed, who would be reviewing our comments, 
who would be presenting them, and to whom. It was like a black hole; we 
had no idea what was going on. This is disturbing especially 
considering the type of confidential information I felt necessary to 
submit. From a current stakeholder's perspective, this is the 
antithesis of how decisions should be made. We still live in the 
uncertainty of what may happen with this.
    Since this Policy, we have had less input into our future, not 
more. Thank you and I would be happy to answer any questions.

                                 ______
                                 

    Dr. Fleming. Ms. Lapp, your timing is perfect.
    [Laughter.]
    Dr. Fleming. I couldn't do any better than that.
    The Chair now recognizes Mr. Lanard for his testimony.

  STATEMENT OF JIM LANARD, CHIEF EXECUTIVE OFFICER, MAGELLAN 
                 WIND, COLLINGSWOOD, NEW JERSEY

    Mr. Lanard. Thank you, Mr. Chairman, Ranking Member, and 
members of the committee. Good morning.
    My name is Jim Lanard. I am CEO of Magellan Wind, which is 
an offshore wind developer looking to develop projects on both 
the West and East Coast of the United States. Formerly I was 
the founder and first president of the Offshore Wind 
Development Coalition, which represented offshore wind 
developers and the supply chain, as we tried to move forward a 
new policy for the United States. And before that I was 
Managing Director of Deep Water Wind, which is now building the 
first offshore wind farm in the United States, off the coast of 
Rhode Island in state water--five 6-megawatt turbines.
    Thank you very much for the opportunity to testify before 
you today on the implications of the President's National Ocean 
Policy. I am delighted to have been here 5 years ago, when we 
first addressed this issue, and now we can give you some 
updates on our experience.
    Let me start by saying that we are proud to report that the 
implications of the President's National Ocean Policy are 
strongly positive. The National Ocean Policy looks to support 
science-based decisionmaking, conflict resolution, data 
sharing, proactive planning, all leading to sustainable 
development.
    We have a big coast in the United States, 32 states border 
on coastal waters, about 200 million people live in those 
states out of our 320 or so million folks, and there are really 
huge ocean users and valuable resources in those waters: 
military--national security and national defense are huge 
users; commercial fishing and aquaculture; cultural and 
archeological sites for tribal nations; national and 
international commerce--shipping; recreational uses--fishing, 
boating, surfing; energy and natural resources--sand mining, 
oil and gas, soon offshore wind, and eventually marine 
hydrokinetics; wildlife--sea birds, fish and all marine life; 
habitat; and aesthetics, the viewshed.
    None of these user groups think they are taking up too much 
space in the ocean. None of them have offered to give back any 
space to the United States. In fact, there is one thing that 
all of these groups have in common: they would like more access 
to larger and larger swaths of the ocean.
    There are new defense technologies that need more space out 
there. There are expanding shipping lanes being proposed. 
Fishing and aquaculture needs more space. Expanded oil and gas 
programs are all over the place. There are more protected areas 
being proposed, and offshore wind wants to come in and work, as 
well. So how do we decide how to balance all those uses?
    I can tell you what definitely doesn't work. What doesn't 
work is a single-sector decisionmaking process that results in 
multiple conflicting policy recommendations from too many 
perspectives. So, what does work to coordinate all those uses? 
Coordinated, multi-sector, multi-stakeholder process with 
negotiations and problem-solving, where all interests and 
stakeholders can work together. It is just common sense, and it 
is exactly what the President has called for with the National 
Ocean Policy.
    We have had great success in Rhode Island with the Rhode 
Island Ocean Special Area Management Plan that coordinated 
Federal and state involvement and came out with a really 
efficient permitting process.
    Offshore wind is new to the oceans. We bring really 
important things, we think. We are proud that we are going to 
support energy independence, carbon reduction, efforts to fight 
climate change, reduce sea level rise, and create high-skilled, 
high-wage jobs, long term, for the United States.
    The Bureau of Ocean Energy Management and the Department of 
the Interior has worked very hard and already is applying the 
ideas and the concepts of the National Ocean Policy. They are 
coordinating with 15 states, they have a Federal-state task 
force, and they are working to de-conflict the uses with the 
military, with the Coast Guard, with commercial fishing in 
these initiatives, and we have had great luck.
    There is a bipartisan nature to this. Where Ms. Lapp is in 
Rhode Island, the Special Area Management Plan was proposed by 
Republican Governor Don Carcieri. Governor Chris Christie in 
New Jersey has supported funding for ocean planning processes, 
as has Deval Patrick, former governor in Massachusetts. And, as 
the Ranking Member said, these ideas for the NOP came from 
President Bush's U.S. Commission on Ocean Policy.
    This is not ocean zoning, this is ocean planning. There is 
no regulatory authority in any of the National Ocean Policy 
requirements, whatsoever. It is more for data collection, so 
that we can get to a rational decisionmaking process, and have 
a multi-sector outcome, not a single-sector outcome.
    The NOP establishes an excellent planning process for 
better planning, better cooperation, and better management. 
There is still much to be done, but when we achieve these 
results we will see conservation of ecosystems, we will ensure 
an orderly and economically sustainable development of ocean 
resources, comprehensive data ports, and maps for all users. 
Minimizing conflicts for existing and for future users, we 
balance the needs of all users, and we will ensure 
environmental constraints will be considered before a project 
is fully developed.
    We are going to find common ground. That is what this 
purpose is.
    Thank you very much for the time.
    [The prepared statement of Mr. Lanard follows:]
          Prepared Statement of Jim Lanard, CEO, Magellan Wind
                              introduction
    Good morning, Mr. Chairman and members of the committee. My name is 
Jim Lanard, co-founder and CEO of Magellan Wind, an offshore wind 
development company. Previously I was co-founder and president of the 
Offshore Wind Development Coalition (OffshoreWindDC) and, before that, 
Managing Director of Deepwater Wind, developer of the Block Island Wind 
Farm, which is scheduled to begin operation later this year as the 
Nation's first offshore wind farm. Thank you for the opportunity to 
present our testimony to you today on ``The Implications of President 
Obama's National Ocean Policy.'' I'm delighted to report that the 
implications of the President's National Ocean Policy are strongly 
positive. The National Ocean Policy seeks to promote industry 
development that is sustainable and complements the variety of 
development activities already occurring in the ocean, reducing 
industrial risk and conflict.
    In October 2011, I had the privilege to present testimony to this 
committee on President Obama's new National Ocean Policy (NOP), at 
which time I was serving as president of OffshoreWindDC, an industry 
trade group, which has since been merged with the American Wind Energy 
Association. I've reviewed what I said in 2011, appearing as president 
of OffshoreWindDC and those comments align with my views in 2016 as CEO 
of an offshore wind development company. I'd like to summarize some key 
points I made in 2011 and update them with comments on the impressive 
progress the Administration has made toward full implementation of the 
National Ocean Policy.
                 the president's national ocean policy
    October 2011 Testimony of OffshoreWindDC. Offshore wind resources 
can play a vital role in the Nation's effort to restructure its 
electrical power sector in a manner that increases employment and 
manufacturing opportunities, improves national security, reduces price 
volatility, and combats climate change. OffshoreWindDC supports the 
Administration's efforts to create a national oceans policy and 
implement coastal and marine spatial planning in U.S. waters.

    May 2016 Update. Multiple states have already developed plans for 
their state waters. The National Ocean Policy seeks to build on these 
state-driven initiatives. For example, one of the best examples of a 
successful broad-based stakeholder ocean planning process is the 
development of Rhode Island's Ocean Special Area Management Plan (Ocean 
SAMP). The Ocean SAMP was supported by the U.S. Department of the 
Interior, the U.S. Environmental Protection Agency, RI Department of 
Environmental Management, RI Coastal Resources Management Council 
(CRMC), the Chair of the CRMC's Fisheries Advisory Board (a 
lobsterman), and the Conservation Law Foundation--a group whose members 
aren't always on the same side of the table with industry.
    The Ocean SAMP research and final reports enabled Deepwater Wind to 
expedite development of the Block Island Wind Farm without compromising 
on the thoroughness of reviews needed to avoid environmental harms, 
protect health and safety, and resolve stakeholder conflicts. In a 
recent news article celebrating the 5-year anniversary of the 
development of the Ocean SAMP, Grover Fugate, CRMC Executive Director, 
stated that, ``People ask why would [the state] want to engage in 
marine spatial planning? It comes down to, who do you want to control 
your destiny? In terms of the science and uses and what we wanted to 
protect, the state took the role in setting forth a plan of where they 
wanted to see development go, rather than reacting to proposals.'' We 
anticipate that the regional planning underway for the Northeast and 
Mid-Atlantic will help our industry and others to identify successful 
locations. We'll also be able to plan ahead for potential ocean use 
conflicts, including taking environmental constraints into 
consideration, before a project is fully developed, saving the industry 
time and money.

    October 2011 Testimony of OffshoreWindDC. One critical goal of the 
National Ocean Policy is to create better planning to protect our 
oceans in the future, especially as demands on them continue to grow. 
Planning requires informed, broad-based data collection and data 
integration managed by a vast array of Federal agencies. My earlier 
testimony made the point that better plans lead to road maps that can 
guide current and future users of the oceans about how to best achieve 
their business plans. Thus, these types of planning and data collection 
efforts will help industry by providing more certainty about the rules 
of the road. Certainty can help to avoid conflict and improve 
efficiency.
    Comprehensive, science-based management of ocean resources can 
supply needed data on existing and potential uses of ocean resources 
and a critically needed framework for analyzing those data to 
characterize and resolve conflicts.

    May 2016 Update. The NOP's planning framework favors multi-sector 
participation and decisionmaking, in contrast to the previous 
framework's focus on separate, single-sector planning efforts. The 
siloed, single-sector approach sometimes resulted in multiple, 
conflicting policy recommendations from numerous Federal and state 
planning agencies. Multi-sector planning reduces conflicts and improves 
the decisionmaking process thereby supporting efficient and coherent 
outcomes. The NOP is making great strides to improve offshore 
permitting efficiency and Federal agency coordination.

    October 2011 Testimony of OffshoreWindDC. Unlike some users of the 
oceans and Great Lakes, we don't consider coastal and marine planning 
to be an ocean zoning exercise. Rather, we see it as a process to 
identify ecologically and socially significant areas that should be 
considered whenever any use is proposed for a specific area. While it 
is true that these plans could indicate preferences and priorities, 
proposed uses for any site will still have to be studied separately. We 
also think ocean planning is important to protect marine ecosystems 
while ensuring the orderly and sustainable development of ocean 
resources in a manner that respects and minimizes conflicts and 
existing uses including commercial fishing, recreational boating, 
surfing, aesthetic appreciation, wildlife, habitat, shipping, oil and 
gas and national defense activities.
    Ocean planning is not new to the United States. And it's not a 
partisan issue, either. In the past, Massachusetts, Rhode Island and 
New Jersey led by governors from both parties have relied upon their 
states' ocean planning processes to identify the best sites for 
offshore wind farms. None of these processes has resulted in ocean 
zoning outcomes; rather, they have identified areas with the least 
conflicting uses for the potential development of offshore wind 
farms.\1\ In each of these state's processes there was extensive 
stakeholder involvement. The National Ocean Policy requires the 
Regional Planning Bodies to ensure similar extensive stakeholder 
participation, a critical component as ocean planning evolves in the 
United States.
---------------------------------------------------------------------------
    \1\ For more information see: the Massachusetts Ocean Management 
Plan, (http://www.mass.gov / 
?pageID=eoeeaterminal&L=3&L0=Home&L1=Ocean+%26+Coastal+Management 
&L2=Massachusetts+Ocean+Plan&sid=Eoeea&b=terminalcontent&f=eea_oceans_mo
p&csid= Eoeea), the Rhode Island Ocean Special Area Management Plan (RI 
SAMP), http://seagrant.gso.uri.edu/oceansamp/, and the New Jersey 
Ocean/Wind Power Ecological Baseline Studies, http://www.nj.gov/dep/
dsr/ocean-wind/.

    May 2016 Update. The NOP calls for the establishment of Regional 
Planning Bodies (RPB), two of which, the Northeast RPB and the Mid-
Atlantic RPB, are expected to publish their draft regional ocean plans 
for public comment in the next month or two. Both of these RPBs adopted 
processes that engaged a broad set of stakeholders including those from 
a range of ocean industries from shipping, ports, offshore energy, tug 
and barge operators, commercial and recreational fishing, undersea 
cable companies, and recreational boating to name a few, who 
contributed industry data, identified future industry trends, and made 
recommendations to improve coordination. These efforts prove the value 
of collaboration among stakeholders with varied interests working 
together to find common ground and to collect data on environmental 
resources and human use that can be used to make better management 
decisions.
    Planning not only promotes better management decisions but also 
improves national security. In a policy brief by the Center for 
American Security,\2\ authors stated that ``[a]s a primary user of the 
coastal ocean, the U.S. military needs dedicated and charted offshore 
areas in which to train and conduct exercises to prepare for war, 
thwart terrorist activities and prevent other threats against the 
United States. For the Navy, Coast Guard and Marine Corps, operating in 
the coastal ocean is critical to maintaining operational readiness. 
Although the ocean may seem vast, a unified effort is necessary to 
balance increased offshore activity with the need to maintain U.S. 
military proficiency and national security and ensure the safety and 
sustainability of this vital resource . . .. The development of a 
national coastal ocean mapping system would benefit all coastal ocean 
users and is an integral step toward more effective and thorough ocean 
planning. Through comprehensive awareness of major offshore activity, 
the United States would simultaneously advance national security, 
economic development and ocean conservation.''
---------------------------------------------------------------------------
    \2\ http: / / www.cnas.org / sites / default / files / 
publications-pdf / OceanMapping_MedinaSmith Sturgis.pdf.
---------------------------------------------------------------------------
    Ocean planning has been and should continue to be bi-partisan. I 
would like to remind this committee that the National Ocean Policy came 
out of recommendations from the U.S. Commission on Ocean Policy, the 
members of which were appointed by George W. Bush. Additionally, the 
Rhode Island Ocean SAMP, referenced above, was actively supported by 
former Republican Governor Donald Carcieri during his tenure in the 
State House. New Jersey Governor Chris Christie and former 
Massachusetts Governor Deval Patrick have also supported funding for 
state ocean planning processes. In a letter submitted in March 2016 to 
this body, the Chamber of Shipping of America, East Coast Shellfish 
Growers Association, Northeast Marine Pilots Association, Massachusetts 
Lobstermen's Association, Oregon Wave Energy Trust, and Lenape Indian 
Tribe of Delaware along with 117 other organizations representing a 
huge array of interests from conservation to industry supported ocean 
planning for our coastal communities, economies, and ecosystems. I hope 
this committee recognizes the value of RPBs, the bi-partisan nature of 
ocean planning, and will choose to support additional funding for the 
NOP and the important work of states, Federal agencies, industry and 
conservation stakeholders, and tribes.

Three other topics addressed in OffshoreWindDC's October 2011 testimony 
to the committee also merit re-emphasis in updated form:

Job creation.
    The offshore wind industry has the potential to create thousands of 
highly skilled jobs in the United States. Offshore wind creates 
employment in the manufacture of wind farm components as well as in the 
installation and operation of the wind farms. To realize the full job-
creating potential of offshore wind development, however, it will be 
necessary to build offshore wind farms at scale, as is occurring today 
in Europe and China. Manufacturers will invest in the United States 
only if they have the orders needed to justify the investment. 
Factories for the manufacture of wind turbines (composed of as many as 
8,000 discrete parts), plants that manufacture submarine cable, and 
shipbuilding facilities needed to build special purpose vessels for the 
offshore wind industries. We hope the committee and the rest of the 
Congress will support initiatives to spur development of these 
facilities so that U.S. workers can join the world's growing offshore 
wind workforce.
Utility-scale offshore wind farms: a new use of the oceans and Great 
        Lakes.
    U.S. coasts and the adjoining exclusive economic zone, along with 
the Great Lakes, have historically supported a wide range of 
industrial, commercial, national defense, and cultural and recreational 
activities. These areas are coming under growing competitive pressure 
from a variety of sources. There are calls for expanded oil and gas 
drilling and for new and expanded shipping lanes, commercial fishing, 
aquaculture, and new defense technologies; increased recreational 
demand also contributes to the pressure. Offshore wind power, which has 
the potential to generate clean, renewable energy for millions of homes 
up and down our coasts, adds another use to the mix.
    Lease areas for offshore wind farms can be as large as 200 or 300 
square miles. Distances between turbines, which increase with rotor 
diameter due to the need to limit turbulence and wake effects, range 
from a half mile to almost a mile. This ensures that many other ocean 
uses will be feasible at wind farm sites. We recognize, however, that 
advancement of the public interest in balanced, sustainable use of 
ocean and Great Lakes resources will require better planning, better 
cooperation, and better management. Magellan believes that the 
President's National Ocean Policy provides an essential framework for 
achieving the needed improvements.
DOI's Smart-from-the-Start
    Congress, when it enacted the Energy Policy Act of 2005, mandated 
that regulations related to the use of the Outer Continental Shelf for 
offshore wind be adopted within 180 days of the bill becoming law. Five 
years later, on April 29, 2009, those regulations were finally adopted 
by the Department of the Interior. Interior, in collaboration with the 
governors of many East Coast states, announced in November 2010 the 
Smart-from-the-Start initiative, a program designed to accelerate the 
responsible development of offshore wind resources in Federal waters.
    Interior noted that the Smart-from-the-Start process and associated 
data collection efforts can inform the Coastal and Marine Spatial Plans 
that will be developed by Regional Planning Bodies created pursuant to 
the National Ocean Policy. Smart-from-the-Start takes into account 
existing information on wildlife and ecosystems and other uses of the 
ocean (e.g., fishing and shipping) and thus attempts to ``take into 
account the national CMSP (Coastal and Marine Spatial Planning) goals 
and principles,'' as recommended in the Final Report of the Ocean 
Policy Task Force. Final Report at 63. In important ways, the 
development of offshore wind farms can provide a test case for putting 
CMSP principles into practice.

                               conclusion
    In summary, we congratulate the Administration for the effective 
implementation of the National Ocean Policy. While there is still much 
to be done, the progress to date bodes well for ocean management so 
that all stakeholders can continue to use and enjoy ocean resources in 
balanced, sustainable ways. The National Ocean Policy is helping 
conserve marine ecosystems and ensure the orderly and economic 
development of ocean resources, in a manner that respects and minimizes 
conflicts with existing users while promoting emerging technologies. We 
are eager to support our Nation's efforts to create more jobs for U.S. 
workers; thoughtful implementation of the National Ocean Policy will 
achieve this goal and promote greater certainty for American 
businesses.
    Thank you for the opportunity to share our thoughts with you.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Lanard.
    And finally, Mr. Keppen, you are recognized.

   STATEMENT OF DAN KEPPEN, EXECUTIVE DIRECTOR, FAMILY FARM 
                ALLIANCE, KLAMATH FALLS, OREGON

    Mr. Keppen. Good morning, Chairman Fleming, Ranking Member 
Huffman, and members of the subcommittee. My name is Dan 
Keppen, and on behalf of the Family Farm Alliance, I thank you 
for this opportunity to present this testimony on implications 
of the Obama administration's National Ocean Policy.
    Family Farm Alliance is a grassroots organization of family 
farmers, ranchers, irrigation districts, and allied industries 
in the 16 Western states. A critical issue that the Western 
family farmers and ranchers are confronted with at this time is 
the daunting number of Federal administrative policy 
initiatives they face.
    Nearly 6 years ago, President Obama signed an Executive 
Order to implement a National Ocean Policy, or NOP. The policy 
sets forth yet another level of Federal management oversight 
intended to improve the way inland ocean and coastal activities 
are managed. Unfortunately, this has the potential to impose 
negative impacts, intended or not, on the Western interests we 
represent.
    In early 2012, the White House released its draft NOP 
Implementation Plan, which made it clear that activities that 
might adversely affect the ocean ecosystems may also be 
impacted. Because of this, we are uncertain as to whether the 
Administration's ocean policy intends to revise existing 
regulations or impose new regulations on activities that are 
already permitted by the Federal Government.
    We certainly can support the goals of the NOP, which are 
intended to guide Federal agencies to, among other things, 
ensure the protection, maintenance, and restoration of the 
health of oceans, enhance ocean and coastal economies, and 
preserve our maritime heritage. We support the NOP's intent to 
provide financial assistance to private landowners who want to 
apply voluntary conservation practices. NOP's acknowledgment of 
the importance of collaborative watershed restoration efforts 
is also a good thing.
    On the other hand, we fear that the Regional Planning 
Bodies with a strong Federal presence proposed under the ocean 
policy framework could dramatically increase the role of 
Federal agencies on inland areas. We believe NOP will affect 
already budget-strapped agencies that interact closely with 
Western agricultural irrigators, including the USDA. Despite 
USDA's involvement in the National Ocean Policy over the past 3 
years, the full extent of the Department's activities and role 
in the process are still not clear.
    The NOP would also establish a framework for collaboration 
and a shared set of goals to promote ecosystem-based 
management, which would allow new Regional Planning Bodies to 
potentially impact activities that occur on lands that drain 
into the ocean. This objective involves vague and undefined 
goals and policies that we know from experience can be used by 
critics of irrigated agriculture as a basis for lawsuits to 
stop or delay federally permitted activities.
    Finally, we believe there is a risk of unintended economic 
and societal consequences associated with implementing this 
policy. The NOP creates the potential for unforeseen impacts to 
inland sectors, like agriculture. The family farmers and 
ranchers we represent are part of a $172 billion contribution 
that Western irrigated agriculture makes to our economy every 
year. Our producers also contribute to a luxury our Nation's 
citizens enjoy. That is, they spend less of their disposable 
income on food than anywhere else in the world.
    We must move away from spending Federal funds to support 
new bureaucracies and procedures that could lead to further 
uncertainty, restrictions, and delays. Instead, taxpayer 
dollars should be allocated to existing and proven entities, 
programs, and activities that have already been authorized. 
Congress should work to delay implementation of this ocean 
policy, which would provide more time for oversight and 
examination of potential impacts of the NOP. Requiring a report 
on the activities that USDA and other Federal entities have 
engaged in and the resources expended related to implementation 
of this policy could, in fact, lead to better public policy.
    The proposed NOP is just one Federal regulatory initiative 
of dozens that we have been tracking in recent years. In fact, 
the president on my board of directors at this very moment is 
participating in another oversight hearing just down the hall, 
focusing on the myriad of new regulations he and other farmers 
and ranchers currently face.
    As is often the case, it is unclear how this new policy and 
others will impact watershed planning efforts being conducted 
at the state and local levels, some with the assistance of 
Federal agencies. Many of these processes and actions will have 
very real and yet-to-be-measured negative impacts on Western 
irrigated agriculture. Others simply offer the potential for 
disruption.
    In conclusion, I ask that you put yourself in the shoes of 
our family farmers and ranchers as they try to assess the 
cumulative effects of all these regulatory measures. It is time 
to call time out, and take a look at these impacts before we 
add new chapters to what our members already see as a very 
large rulebook. We welcome your leadership to help make this 
possible. We are pleased that your committee is paying 
attention and providing this opportunity to voice our concerns.
    Thank you for this opportunity to provide this testimony 
today.
    [The prepared statement of Mr. Keppen follows:]
   Prepared Statement of Dan Keppen, Executive Director, Family Farm 
                                Alliance
    Good morning Chairman Fleming, Ranking Member Huffman and members 
of the subcommittee. My name is Dan Keppen, and on behalf of the Family 
Farm Alliance (Alliance), I thank you for this opportunity to present 
this testimony on the implications of the Obama administration's 
National Ocean Policy. The Alliance is a grassroots organization of 
family farmers, ranchers, irrigation districts, and allied industries 
in 16 Western states. The Alliance is focused on one mission: To ensure 
the availability of reliable, affordable irrigation water supplies to 
Western farmers and ranchers. We are also committed to the fundamental 
proposition that Western irrigated agriculture must be preserved and 
protected for a host of economic, sociological, environmental, and 
national security reasons--many of which are often overlooked in the 
context of other national policy decisions.
    The Family Farm Alliance has a reputation for helping to solve 
Western water challenges in a constructive way. There are critical 
issues that the Western family farmers and ranchers we represent are 
confronted with at this time. At the top of the list is the daunting 
number of Federal administrative policy initiatives that are facing 
Western agricultural producers.
    In this instance, we are uncertain how the Administration's ocean 
policy will be implemented. What will the role of states and 
stakeholder user groups be? Have potential impacts to the economy, the 
Federal budget, and existing statutes and regulatory processes been 
assessed? How will this complement or conflict with the authority of 
states? For these reasons, we are concerned that this policy could 
dramatically increase the role of Federal agencies on inland rivers and 
adjacent lands as they might pertain to the much larger problem of 
ocean health, as further outlined in this testimony.
                  background of executive order 13547
    On July 19, 2010, President Obama signed Executive Order 13547 to 
adopt the final recommendations of the Interagency Ocean Policy Task 
Force to implement a new National Ocean Policy (NOP). The policy sets 
forth yet another level of Federal management and oversight intended to 
improve the way inland, ocean and coastal activities are managed. 
Unfortunately, this has the potential to impose negative impacts--
intended or not--across a spectrum of sectors, including the Western 
agricultural producers and irrigation organizations we represent.
    In early 2012, the White House released its draft National Ocean 
Policy Implementation Plan, which made it clear that activities that 
might adversely affect the ocean ecosystems may also be impacted--no 
matter how far inland they may occur. While the NOP states that 
National Ocean Policy nor marine planning ``creates or changes 
regulations or authorities,'' it also proposes that agencies will 
``coordinate to use and provide scientifically sound, ecosystem-based 
approaches to achieving healthy coastal and ocean habitats.'' From our 
standpoint, this presents significant uncertainty as to whether the 
Administration intends to revise existing regulations or impose new 
regulations on activities that are already permitted by the Federal 
Government.
      support for the nop's voluntary incentive-driven provisions
    The Family Farm Alliance has long advocated a voluntary, incentive-
driven philosophy to advance conservation, and thus we support the 
NOP's intent to provide financial assistance to private landowners 
seeking to apply voluntary conservation practices. We were pleased to 
see the NOP acknowledge that ``collaborative watershed restoration 
efforts are important to the overall success of coastal and marine 
habitat conservation,'' a principle we also embrace.
    However, the NOP then points to restoration efforts for Pacific 
Northwest salmon as an ``excellent example of collaborative, voluntary 
upland watershed conservation and restoration.'' Unfortunately, the 
courts do not always agree, as underscored by the recent decision by 
U.S. District Judge Michael H. Simon, who ruled the Federal Government 
hasn't done nearly enough to improve Northwest salmon runs. ``These 
efforts have already cost billions of dollars, yet they are failing,'' 
he wrote earlier this month.
    Now, certain environmental groups say the Snake River Dams--which 
fuel much of the Northwest's baseload power supply (backing up wind 
energy and other renewables) and make possible irrigation and 
navigation for moving agricultural commodities to market--are seen as 
the problem, and must come down. As further described below, our 
members fear that the ``Federal Regional Planning Bodies'' proposed 
under the Ocean Policy framework could dramatically increase the role 
of Federal agencies on inland rivers and adjacent land uses, including 
all uses (Ag, irrigation, ports, etc.), at a time when other hydropower 
dams are under ongoing litigation by certain environmental groups.
            concerns of western family farmers and ranchers
    The Family Farm Alliance certainly can support the goals of the 
NOP, which are intended to guide Federal agencies to ``ensure the 
protection, maintenance and restoration of the health of ocean, coastal 
and Great Lakes ecosystems and resources, enhance the sustainability of 
ocean and coastal economies, preserve our maritime heritage, support 
sustainable uses and access, provide for adaptive management to enhance 
our understanding of and capacity to respond to climate change and 
ocean acidification, and coordinate with our national security and 
foreign policy interests.'' However, we have several concerns that 
extend beyond this broad intent.
Funding Concerns
    We believe NOP will affect already budget-strapped agencies that 
interact closely with Western agricultural irrigators, including the 
U.S. Department of Agriculture (USDA), the National Oceanic and 
Atmospheric Administration (NOAA), the Departments of Commerce and the 
Interior, the Environmental Protection Agency (EPA), and the Army Corps 
of Engineers (Corps). Despite USDA's involvement in the National Ocean 
Policy over the past 3 years, the full extent of the Department's 
activities and role in the process is not clear. As Federal budgets are 
further reduced, it is unclear how much funding the agencies will be 
taking from existing programs to develop and implement this new 
initiative.
Uncertain Impacts to Inland Areas
    The NOP proposes that, working through the U.S. Coral Reef Task 
Force, agencies will coordinate to address key threats to coral reef 
ecosystems, including impacts from land-based sources of pollution. 
Through ``more effective use'' of voluntary programs, partnerships and 
pilot projects, agencies will work to ``reduce excessive nutrients, 
sediments and other pollutants.'' The NOP would also establish a 
framework for collaboration and a shared set of goals to promote 
``ecosystem-based management,'' where agencies will ``develop 
principles, goals and performance measures'' that support this 
management philosophy.
    The `ecosystem-based management' objective created by this 
Executive Order would allow federally dominated Regional Planning 
Bodies to reach as far inland as deemed necessary to protect ocean 
ecosystem health. It could potentially impact all activities that occur 
on lands adjacent to rivers, tributaries or watersheds that drain into 
the ocean. For example, although the policy is portrayed by the 
Administration as primarily targeting ocean-related activities, the 
draft implementation plan specifically states that the policy plans to 
address ``the major impacts of urban and suburban development and 
agriculture--including forestry and animal feedlots.''
    The `ecosystem-based management' objective involves vague and 
undefined goals and policies that we know from experience can be used 
by critics of irrigated agriculture as the basis for lawsuits to stop 
or delay federally permitted activities. For example, the National 
Marine Fisheries Service (NMFS) has determined that Central Valley 
salmon populations will go extinct unless government agencies change 
their water operations in California. In a draft ruling, NMFS concluded 
that the southern resident population of killer whales may go extinct 
because its primary food--salmon--is imperiled by California's network 
of dams and canals. Similar sinister linkages between orcas and potato 
farmers (located hundreds of miles from the Pacific Ocean) were 
contemplated as a biological opinion was being drafted by NMFS for the 
Klamath Irrigation Project. In addition to opening up the possibility 
of further such `ecosystem-based' relationships, the NOP sets up `pre-
application consultations' where requested Federal permits would be 
subject to additional consultation processes prior to any formal 
consideration, adding yet another layer of Federal oversight and 
bureaucratic controls.
    Finally, we believe there is a high risk of unintended economic and 
societal consequences associated with implementing this policy, due in 
part to the unprecedented geographic scale under which the policy is to 
be established. As currently set forth, the National Ocean Policy 
creates the potential for unforeseen impacts to inland sectors such as 
agriculture, which is connected via the ``ecosystem''-based approach to 
the ocean. The family farmers and ranchers we represent are part of a 
$172 billion contribution the ``Irrigated Agriculture Industry''--made 
up of direct irrigated crop production, agricultural services and the 
food processing and packaging sectors--makes to our economy every year. 
Our producers also contribute to a luxury our Nation's citizens enjoy: 
spending less of their disposable income on food than anywhere else in 
the world.
                            recommendations
    Rather than expend Federal funds to support new bureaucracies, 
procedures and regulations that could lead to further uncertainty, 
restrictions and delays, scarce taxpayer dollars should be allocated to 
existing entities, programs and activities that have already been 
authorized by Congress and are necessary for businesses and the economy 
to properly function. Given these concerns, Congress should work to 
delay implementation of the National Ocean Policy. This would provide 
more time for oversight and examination of potential impacts of the 
NOP, and help ensure an ocean policy that appropriately reflects and 
enhances the role that our oceans, coastal areas and marine ecosystems 
play in our Nation's economy, national security, culture, health, and 
well-being.
    USDA is a member of the National Ocean Council, and USDA 
representatives have been identified to serve on ``Regional Planning 
Bodies'' charged with developing ``Coastal and Marine Spatial Plans'' 
in regions including the Northeast and Gulf of Mexico. Since the 
National Ocean Policy was established pursuant to Executive Order 13547 
in July 2010, entities across the Federal Government, including USDA, 
have been committing unknown amounts of resources and personnel toward 
the development of an initiative that has not been authorized by 
Congress. Requiring a report on the activities that USDA and other 
entities across the Federal Government have engaged in and the 
resources expended in furtherance of National Ocean Policy 
implementation could lead to better public policy and would ensure the 
kind of transparency that the American taxpayer deserves and expects.
            cumulative impact of new regulations in the west
    The proposed National Ocean Policy is just one Federal regulatory 
initiative of dozens that we have been tracking in recent years. As 
with many of these administrative proposals, the related implications 
and estimated impacts on our members are often difficult to ascertain. 
However, our members are wary of how these plans may impact existing 
and ongoing watershed planning efforts being conducted at the state and 
local levels, some with the assistance of these Federal agencies 
themselves.
    Thousands of watershed councils exist throughout the West and they 
are engaged in a variety of conservation and restoration projects which 
could be derailed or delayed by the imposition of new Federal planning 
requirements. Water users are often active participants in these 
efforts and have a large stake in ensuring that these projects 
continue. We need to be sure that new overarching planning groups and 
programs are really necessary or are wasteful expenditures of public 
resources. In addition, the Obama administration needs to be cognizant 
of the difference between water resource regulation under Federal 
environmental laws and water resource management which is conducted 
pursuant to state law.
    At a time when our Nation is struggling to return to the path of 
economic prosperity, we cannot support the creation of a new Federal 
watershed planning program linked to ocean health, particularly for 
those states that already have existing, productive watershed programs 
in place. Federal participation should be channeled through these 
existing state programs, rather than creating uncertainty through 
potentially cumbersome, overarching new Federal requirements which 
threaten to derail important water quality and water conservation 
projects already underway.
    We have yet to see if many of the administrative policy initiatives 
proposed by the Obama administration in the past 7 years have been 
successful in their intent. More importantly, we still are trying to 
determine what their cumulative impacts will be on Western irrigated 
agriculture. These types of Federal water resources actions and 
regulatory practices could potentially undermine the economic 
foundations of rural communities in the arid West by making farming and 
ranching increasingly difficult.
    At multiple times over the past 7 years, we have updated a growing 
list of these and other newly proposed actions. While we are not yet 
sounding the alarm of imminent destruction of irrigated agriculture as 
we know it, we do believe many of these processes and actions will have 
very real and yet-to-be measured negative impacts on Western irrigated 
agriculture. Others simply offer the potential for disruption.
    We ask that you, the members of this subcommittee, put yourself in 
the shoes of our family farmers and ranchers as they view these 
daunting administrative initiatives in the course of growing food and 
fiber for our Nation and the world in an already daunting environment 
of risks beyond their control. It is difficult to assess the cumulative 
effects of these regulatory measures, which really should be assessed 
and calculated before adding additional chapters to what our members 
already see as a very large rulebook.
                              conclusions
    American family farmers and ranchers for generations have grown 
food and fiber for the world, and we will have to become more 
innovative than ever before to meet the critical challenges ahead, 
including feeding a growing world population on less land and with less 
resources. That innovation must be encouraged rather than stifled with 
new layers of Federal regulations and uncertainty. Unfortunately, many 
existing and proposed Federal water resource policies make it even more 
difficult for farmers in an arena where agricultural values are at a 
disadvantage to Federal ecological and environmental priorities.
    Many of these administrative changes are drawing praise from 
environmental organizations that have been advocating for them for some 
time, but ultimately the huge negative impacts of such destructive 
policies will be aimed at the heart of the economy in rural America. We 
can only hope that the Federal Government will give equal consideration 
to the concerns of our farmers, ranchers and agricultural 
organizations.
    We welcome your leadership to help make that possible. We are 
pleased that your committee is paying attention and providing this 
opportunity to voice our concerns. We look forward to working with you 
and other Members of Congress toward this end.
    Thank you for this opportunity to provide this testimony today.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Keppen.
    Thank you all for your valuable testimony. At this point, 
we would begin our questions for our witnesses. We may not 
finish our questions in the first round, we may have a second 
round. I see a lot of interest around the dais. I yield myself 
5 minutes to begin questions.
    First of all, just a commentary. We have heard it said that 
this is, at worst, benign but could actually be helpful. Mr. 
Lanard talked about that. Mr. Huffman talks about how this is 
sort of a new kind of air control system that would be in the 
water.
    I understand all of that, but let's look at what has 
actually been happening. Today the regulatory system of the 
Obama administration has become the fourth branch of 
government, writing laws and enforcing them by unelected 
bureaucrats who have absolutely no accountability. And what 
gives us even more pause for concern is the lack of 
transparency in this entire process. That is another danger 
sign that we are going to have a continued growth of this 
unaccountable new form of government.
    Captain Zales, Mr. Lanard testified that this is necessary 
to eliminate conflicts between industries, such as offshore 
development, and commercial and recreational fishing. You have 
been fishing in the Gulf for some time now. What is your 
understanding of the relationship between our offshore oil rigs 
and commercial and recreational fisheries?
    Mr. Zales. It is an excellent relationship. I mean, 
clearly--and I was told red snapper is not to be discussed, but 
in the Gulf of Mexico, according to some key scientists such as 
Dr. Bob Shipp, without the oil rig situation and the energy 
production in the Gulf of Mexico, red snapper probably would 
not be rebuilt and expanding the way that it is today. Because 
of the platforms and the artificial structure that they create, 
they have enhanced the resource in areas of the Gulf to where, 
traditionally and historically, those areas did not produce.
    Dr. Fleming. Red snapper is a reef fish and it loves oil 
rigs.
    Mr. Zales. Exactly. And a lot of other artificial 
structures.
    Corals have formed up on some of these platforms in the 
Northern Gulf that previously were non-existent. So it is clear 
that the impact is a healthy impact. The relationship is good. 
There are a lot of fish. People fish around those rigs where 
they are located every day.
    Dr. Fleming. Well, by the same token, if we had this 
coastal and marine spatial planning, could it disrupt or 
possibly destroy the harmony that is currently in place?
    Mr. Zales. It very well could. I mean, in existence today 
because of the BOEM situation and the mine-utilized rigs that 
they have taken out, and places in offshore Texas where they 
have taken out a lot of rigs that were non-productive, fishing 
is not near as good as what it once was because those rigs have 
been removed.
    Dr. Fleming. OK.
    Mr. Zales. Whenever you take that habitat out of the water, 
fish have to have a place to live.
    Dr. Fleming. OK.
    Mr. Zales. It destroys the situation.
    Dr. Fleming. Thank you, Captain.
    Ms. Lapp, you are very involved in the Regional Planning 
Body. Talk to me about transparency. What kind of transparency 
in this process are you seeing?
    Ms. Lapp. At that Northeast Regional Planning Body meeting 
that I did attend, one of the members acknowledged that they 
were lacking in transparency, and that it was undermining the 
credibility of the whole process. Stakeholders are not 
involved.
    Dr. Fleming. And as a stakeholder and industry 
representative, what sort of message does this send?
    Ms. Lapp. That they are going to get an agenda pushed 
through at all costs by the end of this year.
    Dr. Fleming. OK. So, it is a determined bureaucratic body, 
unelected officials who are accountable to no one, including 
Congress, that push through their agenda, whatever it is, 
regardless of what industries are affected, what citizens 
believe, what voters think, and what Americans in general would 
believe and would clearly understand.
    Mr. Keppen, do you have any comments about any of the 
issues we have brought up here?
    Mr. Keppen. Well, again, I like the comment I heard earlier 
by one of the Members, death by a thousand cuts. In the last 7 
years, a good portion of my time and my organization's time has 
been spent just trying to weigh in on all these various 
rulemakings that are occurring; and cumulatively, what does it 
mean?
    Dr. Fleming. Do you think this suppresses the economy of 
your industry and others around you?
    Mr. Keppen. Well, it definitely creates uncertainty, and I 
think it opens the potential for actions that could be taken 
that could definitely have an impact on producers in the 
Western United States.
    Dr. Fleming. Well, you heard Mr. Huffman say that the ocean 
industry has outstripped our economy. But what kind of affects 
me about that is the fact that our economy in the last 10 years 
has had the worst growth in history. It does not take much to 
outstrip our general economy today.
    Thank you, and I yield to Mr. Huffman.
    Mr. Huffman. I would like to start with Mr. Lanard.
    Mr. Lanard, I guess about 5 years ago, there was a series 
of hearings by the Majority on this National Ocean Policy. I 
believe you may have participated and testified in at least one 
of them. And, instead of supporting the plan for our oceans 
that had been recommended on a bipartisan basis, and supported 
by President George W. Bush, the Republican Majority pursued 
some of the same things we are hearing today, a lot of 
speculative scare tactics about things that might happen, about 
additional regulations that could come into play and hurt 
American jobs.
    But we now have the benefit of a few years of actual 
practice. I wanted to ask you about that, because it seems to 
me that we are seeing real results. Better coordination between 
agencies and stakeholders, I am told has helped spur the first 
aquaculture permits in both the Atlantic and Pacific waters, 
and generated more than $100 million for our states in multi-
use Rigs-to-Reefs projects.
    I am told that the National Ocean Policy has actually 
facilitated extension of Rigs-to-Reefs into Federal waters in 
places like the Gulf of Mexico, which should be a good thing 
for fishing, going forward, to Mr. Zales's point; supported the 
growing offshore wind industry; and encouraged job growth and 
independence from foreign energy pressures.
    I want to ask you, Mr. Lanard, having heard from other 
witnesses and my colleagues across the aisle, do you agree that 
the National Ocean Policy causes more uncertainty and confusion 
for stakeholders? You certainly heard all these arguments back 
in 2011, when you testified at a similar hearing. But in your 
experience, has the policy helped increase or reduce 
stakeholder participation and certainty?
    Mr. Lanard. We have worked with the Department of the 
Interior, the Bureau of Ocean Energy Management, and many of 
the other departments to find out how to move offshore wind 
into the commerce sector of the ocean, which has so many other 
competing uses. And the Bureau of Ocean Energy Management has 
been remarkably efficient. They have created state and Federal 
task forces that bring in all the different interests so that 
people can comment and weigh in, and then de-conflict those 
uses. It is a really good process, and it is efficient.
    I think one of the things that is very important for this 
committee to fully appreciate is that these are voluntary ocean 
plans. There is no Regional Planning Body that has to adopt a 
plan. And when it does, as the Northeast plan is coming up, it 
is going to be open to public comment again for the public to 
weigh in.
    The majority of members of these planning bodies are state 
officials and representatives, not Federal officials. So, we 
are not creating a Federal bureaucracy, we are helping the 
states inform the Federal Government how all of us can do a 
more efficient job to manage these different uses.
    And Mr. Huffman, directly personal to you, I want to tell 
you that the northern part of your congressional district has 
some of the best winds for offshore wind in the United States, 
and we will be looking forward to putting a lot of your 
constituents to work out there, building these wind farms.
    Mr. Huffman. I appreciate the reference to the beautiful 
Second Congressional District.
    I want to ask you, though, about marine spatial planning, 
which is not fully implemented at this point. Many ocean 
decisions are single sector, single agency. You referred to 
that in your testimony. Mr. Lanard, are there times right now 
where you have seen the wind industry struggle to have its 
interests represented by other Federal agencies because of that 
single sector, single agency process?
    Mr. Lanard. No, and let me bring up the Department of 
Defense, which is going to be the most resistant to any effort 
to cede its territory. We have a great working relationship 
with the Department of Defense. We go to the Pentagon, we meet 
with the Regional Clearinghouse on Renewable Energy. We meet 
with the Department of Navy, of course, which is the most 
important of those agencies for surface water use and 
subsurface water use. And they are working really hard with us 
to de-conflict this and find ways of working together.
    I think the biggest issue with the Navy might be a radar 
issue, because our towers 15 or 20 miles off the coast might 
have some radar issues. We will resolve that, just like they 
have on land.
    Mr. Huffman. Well, let me just say, back to the second 
district, it is going to be a real regulatory challenge for you 
or anyone else to do a project in an area that has such an 
overlay of coastal act, coastal commission, marine-protected 
areas, sanctuaries, et cetera. I am not sure that needle can be 
threaded. But if there is a spot that is suitable for offshore 
wind--and I don't know, you would know better than me--it is 
inconceivable to imagine you ever navigating all of those 
layers of law and regulation and permitting without agencies 
talking to each other.
    So, it seems to me a pretty good example of a case study of 
why this sort of coordination and communication is needed, and 
I appreciate your testimony.
    Dr. Fleming. Chairman Bishop is recognized.
    The Chairman. Thank you. And I am making an assumption here 
that when you said California, the Second District of 
California had great opportunity for wind farms, I am assuming 
you are talking about natural occurrence and not the rhetoric 
of the Representative from California.
    [Laughter.]
    Mr. Lanard. Talking far off the coast.
    The Chairman. All right. I guess it is both. OK, fine.
    One of the issues for which we are here is because when 
Congress does something, as slow as it is, our attempt is to do 
it correctly. When the Administration tries to do something, 
they just want to do it, and not necessarily do it right. We 
have a perfect example here with the National Ocean Policy.
    This National Ocean Council was done, what, 6 years ago? 
And there still is, at least if I listen to the testimony here, 
some confusion about what it was. And I thank the Subcommittee 
Chair, because his purpose was to try and bring together the 
National Ocean Council and the Council of Environmental Quality 
and have a discussion here. Unfortunately, they refused to show 
up because 6 years later they are still not quite sure what 
they are really doing with this policy. That is a long time to 
get ready for a hearing. I suppose in another 6 years they 
might be ready for a hearing again.
    So, Captain, I appreciate what you said, especially on the 
fact that legislation tried to put this into place and it 
failed. There was a reason why it did not work. But the 
National Ocean Council, have they provided any clarity on any 
of the outstanding questions regarding how this policy is going 
to be implemented, how it is going to directly impact your 
industry?
    Mr. Zales. No, sir, they have not responded to anything 
from me, as a stakeholder, or fellow stakeholders.
    The Chairman. All right, you got it. Thank you.
    Ms. Lapp, let me ask you the same question. Have they 
provided clarity to you? Do you know how this is going to 
impact your industry yet?
    Ms. Lapp. No, except that we might get a marine monument on 
top of our fishing grounds.
    The Chairman. Well, we will talk about that in a second.
    How about you, Mr. Keppen? Do you have clarity?
    Mr. Keppen. Well, I get notifications from just about every 
agency out there every day, and I still have no sense really of 
what is happening, process-wise, or where they are at on the 
West Coast.
    The Chairman. Well, 6 years is a very short time. I am sure 
they will get it down eventually.
    Ms. Lapp, when the comment was made here about voluntary 
actions, you were shaking your head. Why were you shaking your 
head on that one?
    Ms. Lapp. Because there are already regulations being 
created in conjunction with this National Ocean Policy. The 
Fishery Management Councils are moving on this policy. We are 
going to get regs handed down to us, and it is not voluntary.
    The Chairman. While I have you there, let's talk about the 
potential monument because, obviously, the Antiquities Act is 
one of the fun things that we get to talk about all the time. 
The Act itself has three criteria that should be done, but 
recent administrations--not just this one, but recent 
administrations--have refused to go through that criteria. 
Instead they are saying that they have had local input to it.
    I understand the fishery managers from Maine to Florida 
have all written to the President this last week, asking them 
not to designate a monument. I know the entire delegation of 
Massachusetts--not necessarily a bastion of Republicanism--has 
written to the President, asking for at least more input, 
which, unfortunately, under the Antiquities Act, they can't 
do--otherwise, it triggers NEPA.
    Does your experience with a potential New England marine 
monument reassure you that this is not going to be a top-down 
Federal approach that will afford adequate public 
participation, and you will get your say in how it will 
actually be managed if, indeed, it takes place?
    Ms. Lapp. Not at all.
    The Chairman. Your answers are all very simple and very 
direct. I am sorry it comes back to the same thing, that this 
is an institution that has not provided clarity, which they 
were supposed to do. They have had a long time to do it. They 
are still piddling around with where they are coming from, and 
it is creating more uncertainty, and it certainly is not 
helping the industry, and it is not helping the environment. 
What we are doing is just plain wrong and we have to change it 
somehow.
    I yield back.
    Dr. Fleming. The Chairman yields back. Mr. Costa is 
recognized.
    Mr. Costa. Thank you, Mr. Chairman and members of the 
committee.
    Mr. Keppen, according to your testimony, the National Ocean 
Policy could have significant impacts on agricultural producers 
and farmers that are adjacent to inland waterways as it relates 
to both direct and indirect, non-point source discharges.
    We have had, as a result of the drought--and you have 
testified here before--devastating impacts as it relates to not 
only the lack of water, but the regulatory impacts that have 
compounded the lack of our ability to move water.
    In your opinion, could the National Ocean Policy result in 
further harm, as it relates to these inland waterways? And if 
so, how?
    Mr. Keppen. I think so. Again, it is unclear because it is 
sort of vague; but based on the experience that I have had, 
both with the Central Valley Project and I would say the 
Klamath project in Oregon where I live, when you start tying 
inland areas to the ocean and you use the ecosystem approach, 
it is easier for critics of agriculture to make links and 
provide other stresses to reliability of water supplies.
    For both the CVP and Klamath, I know orcas, for example--
there is talk about possibly doing consultation on orcas, 
killer whales. And some folks have even suggested that farmers 
in the Klamath Basin hundreds of miles from the ocean, because 
of potential impacts to salmon downstream, could be having an 
impact on orcas. So, folks are actually talking about--guys I 
represent, driving a tractor around a potato field in 
California--having an impact on orca whales in the Pacific 
Ocean. It is that sort of linkage that definitely causes 
concern.
    Mr. Costa. Do you think the National Ocean Policy, if it 
was clearer, more concise and focused, could have an 
opportunity that it would increase the recovery of species?
    Too often we see contradictions, it seems to me, anyway, of 
this stovepipe mentality. We are treating smelt separately from 
striped bass. We have policies that are in contradiction of one 
another while we are propagating striped bass. On the other 
hand, salmon are impacted as a result of that. Do you have any 
thoughts about that?
    Mr. Keppen. Well, it is hard to say what they have 
accomplished so far. I think having a report or something, and 
I have mentioned USDA putting together a report that describes 
their involvement. Maybe NOAA Fisheries could do the same 
thing, so we could kind of assess how effective some of this 
coordination could be, and what those opportunities are. But 
right now I just don't see what is out there. It is uncertain.
    Mr. Costa. Yes. How about for you and Mr. Lanard, the whole 
notion with this policy of just trying to prioritize--I think 
Chairman Bishop's comments are well taken, there just seems to 
be a lack of clarity. Not only clarity, but a lack of 
prioritization in terms of how you deal with policies that can 
actually be coordinated with all the other agencies, both 
Federal and state. There seems to be no prioritization in this 
process. Do you care to comment, Mr. Keppen?
    Mr. Keppen. I would agree.
    Mr. Costa. Mr. Lanard?
    Mr. Lanard. Thank you. The regulatory authorities were 
created long ago. They exist. There are no new regulatory 
authorities created.
    Mr. Costa. That is not my question, though. In terms of 
coordinating a policy and developing priorities, do you think 
that is occurring?
    Mr. Lanard. Absolutely, it is occurring. With a new 
industry, we can point to the offshore wind industry as a 
perfect example of how that is working. Twenty-nine different 
Federal laws and regulations are going to apply to our 
industry. Those folks have never worked on this before. They 
are now coming together and coordinating it, and making sure 
that it does not contradict regulations that they have to 
impose and apply to other ocean users. It is working very well.
    Mr. Costa. Well, let me just make a comment here, for what 
it is worth.
    I am a supporter of wind power, both onshore and offshore, 
as well as all the other energy tools in the energy toolbox. 
But I would not waste a lot of your time trying to deal with 
proposing wind sites either in the Second Congressional 
District in California or many of the other sites there, 
frankly. If you cannot get it in Massachusetts, there are a 
whole lot of folks who feel, notwithstanding the merit, that 
that is not something that they want to live with for, I think, 
personal reasons more often than policy reasons for energy for 
the Nation.
    Focus elsewhere. That would be my advice. Thank you. My 
time has expired.
    Mr. Lanard. Can I respond, or should I----
    Dr. Fleming. The gentleman yields. Mr. McClintock.
    Mr. McClintock. Well, I don't know about that, Mr. 
Chairman. These wind farms are such an attractive addition to 
our coast. I am sure the people in the second district will 
enjoy looking out at this sea of windmills on what was once 
pristine coastline.
    Mr. Lanard. Congressman, they will not see them, they will 
be 20 miles off the coast.
    Mr. McClintock. Let me go to Ms. Lapp. Mr. Lanard tells us 
there is no regulatory authority in the NOP, it is only for 
data collections to get various agencies talking to one another 
and coordinating information.
    What is the beef if the NOP is simply collecting 
information?
    Ms. Lapp. They are collecting information that they are 
going to use in regulations.
    Mr. McClintock. I am sorry?
    Ms. Lapp. They are collecting information that they are 
going to use in regulations, at least on the fishing industry. 
I know that.
    Mr. McClintock. Mr. Zales, what is your view point?
    Mr. Zales. In the whole plan with the ocean policy, it is 
clear that when people say that there is no regulatory impact 
here, it is clear it states in there that the National Ocean 
Policy and the Federal people that are on these RPBs, if states 
refuse to comply, they over-ride the state and they take over 
and it will essentially take states' rights away. They are 
going to do whatever they want to do.
    Mr. McClintock. Well, that gets me to my next question. Can 
you give us a wiring diagram of how the NOP will produce a much 
more restrictive regulatory environment for commerce?
    Mr. Zales. Essentially, they take over what has already 
been out there--the Fishery Management Plans, the Coast Guard, 
EPA, there is a Clean Water Act, there are a host of regulatory 
issues out there already that, apparently, the National Ocean 
Policy can over-rule. And if things aren't going the way they 
want to do it, they come back and create a new regulation and 
say, ``This is the way it is going to be,'' because of what 
they see, and they say, ``OK, well, this hasn't worked, we are 
going to do something else.''
    The big problem with it is that, even though they can have 
a Mexican official or a Canadian official on a Regional 
Planning Body, me, as an industry person who has been fishing 
in the Gulf of Mexico for 51 years--I started fishing in the 
Gulf when I was 12 years old--I have no say. I cannot provide 
information, except from the outside. And maybe I can do like I 
did in New Orleans a few weeks after the President signed this 
order. I drove from Panama City, Florida to New Orleans and 
back in 1 day to give 1 minute of information to a panel that 
they came telling everybody, ``Here is this great and wonderful 
National Ocean Policy.''
    Mr. McClintock. Well, let's----
    Mr. Zales. That 1 minute does nothing.
    Mr. McClintock. Mr. Lanard just said the regulatory 
authority already exists. Is that the implementing function, 
then, of the NOP, that basically the NOP will be driving a new 
range of regulatory restrictions through a process that is 
already in place?
    Mr. Zales. Pretty much, from what I can tell. I mean, when 
you talk about ecosystem-based management, the South Atlantic 
Fishery Management Council has been working on ecosystem-based 
management for the past 10 to 12 years, way before the National 
Ocean Policy was even thought of.
    Mr. McClintock. Well, we are told that this is simply going 
to provide a framework for stakeholders to provide input. Yet, 
in response to Mr. Bishop, you said you have not felt that they 
have received your input. Is that correct?
    Mr. Zales. Yes, that is pretty much correct.
    Mr. McClintock. Ms. Lapp, what has been your experience?
    Ms. Lapp. They will listen to your comments, but they do 
not do anything with them. They do not incorporate it into 
whatever they are doing.
    Mr. McClintock. Is it your impression that this is 
basically a conclusion-driven process? They have already made 
their conclusions and are simply listening to those who agree 
with them?
    Ms. Lapp. Absolutely. When I was at the RPB meeting where I 
raised my concerns and I sat down, one of the members said, 
``Hey, look. We are implementing a policy just because of a 
timeline. I think we need to slow it down.'' And the co-
chairman and the NOC chair were like, ``We are going to produce 
a plan by the end of this year,'' so, regardless----
    Mr. McClintock. Mr. Kenard?
    Mr. Lanard. No, it is not my experience. In fact, at the 
regional----
    Mr. McClintock. I said Mr. Kenard, but I will take you, Mr. 
Lanard. You have had a positive experience. They have listened 
to you. So, I have to wonder if perhaps some stakeholders are 
more equal than others.
    Ms. Lapp, is that what you are picking up out there?
    Ms. Lapp. I would agree with that, from a fisheries 
standpoint, yes.
    Mr. McClintock. I do want to push back briefly on one thing 
the Chairman said. He called this a fourth branch. It is not a 
fourth branch, it is the combination of the three branches of 
government that the American founders meticulously separated 
through our Constitution. That is what keeps us free.
    Combining all of the powers in the same hands is the very 
definition of tyranny, and yet we are seeing these regulatory 
agencies now writing rules--that is, legislating--enforcing 
those rules--that is executive--and then adjudicating those 
rules--that is judicial. And then, when they fine people, 
keeping the money for their agencies. That is recombining all 
the powers of government the Constitution sought to separate. 
That is a very dangerous development. I yield back.
    Dr. Fleming. I thank the gentleman. And you say tomatoes, I 
say tomatoes. It is all the same to me. Thank you.
    Mr. Lowenthal, you are recognized.
    Dr. Lowenthal. Thank you, Mr. Chair. A little background, I 
represent a coastal district in Southern California. I know 
firsthand that we can have both a thriving ocean economy and at 
the same time protect and conserve our precious ocean 
resources. Off the coast of my district, you see many, many 
things: there are marine protected areas; there are state 
waters, Federal waters; we have a coastal zone; we have 
Department of Defense installations; we are a marine hotspot, 
some of the best blue whale watching occurs in my district; we 
now have the large shellfish aquaculture ranch being installed; 
we have beautiful beaches; we have oil and gas activity with 
some rigs right off the shores of Long Beach; it is also the 
home of the Nation's second-largest port, and combined with the 
Port of Los Angeles, which is part of that district, it is the 
largest port complex in North America.
    When we are having so much activity going on, it makes 
sense if NOAA is trying to cite a new aquaculture installation, 
that the Navy is at the table; that Fishery Management Councils 
weigh in when oil rigs are to be decommissioned; and when we 
are talking about bringing in massive ships, it is a no-brainer 
that NOAA, the Coast Guard, and the ports all work together 
when we collaborate.
    I am getting very confused. My first question is to Mr. 
Lanard. When I see Executive Order 13547--when the President in 
2010, 6 years ago, not 10 years ago as has been stated, just 
adopted the regulations of the Interagency Ocean Policy Task 
Force, and set up in the Executive Order, what will this 
National Ocean Policy attempt?
    I keep hearing that they are a regulatory agency. Will you 
please describe? Is this a regulatory agency? I have looked 
through the Executive Order and see nothing about the setting 
of regulations. I would like to ask. Tell us what is a 
regulatory agency, and is this a regulatory agency?
    Mr. Lanard. The National Ocean Policy is not authorized to 
mandate any new regulations.
    Dr. Lowenthal. It is not authorized to develop regulations. 
Is that not true?
    Mr. Lanard. It is a planning process to work exactly, 
Congressman, with the challenges that you face in your district 
off your coast, all these different competing and conflicting 
uses, and how do we make sense of them, and that is what the 
policy does.
    Dr. Lowenthal. We are hearing that this is kind of an 
underhanded way of regulating. I would like to know about the 
National Ocean Policy. Is the idea of multi-stakeholder 
collaboration, for example in the Northeast, is this a new 
idea? Or have we been trying to do this for a long time and 
this brings us together?
    Mr. Lanard. We have been doing it for a long time, but now 
in a more coordinated way.
    The Regional Planning Bodies that are getting sort of 
disparaged today, painfully listening to this, have included 
very active processes with a broad set of stakeholders. 
Commercial and recreational fishing were involved. Recreational 
boating, shipping, ports, offshore energy, undersea cable 
companies, tow and barge companies have all participated in a 
plan that is about to be proposed for another round of public 
comment.
    This is democracy and it is working. People are going to 
weigh in, and then the plan will be considered by the 
regulatory agencies which Congress has empowered to act, and 
then implemented if the laws that Congress has created gives 
them that authority.
    Dr. Lowenthal. Thank you. We have spent a lot of time--I am 
going to go back--Congressman Graves has introduced and brought 
to our attention some of the issues about the decommissioning 
of oil rigs in the Gulf of Mexico. Last year, I offered an 
amendment to kind of deal with this. It was not accepted, but 
it was an attempt in good faith to kind of deal with oil rigs. 
I offered an amendment to bring all the stakeholders to the 
table to use the National Ocean Policy, as a way of trying to 
conserve snapper habitat and to decommission these rigs.
    To me, it sounds like--and to Mr. Zales--that the National 
Ocean Policy is a solution to bringing people together, not a 
problem. Can you respond to that?
    Mr. Zales. Yes, sir, and I appreciate you asking me that 
question.
    Rigs-to-Reefs was established years before the National 
Ocean Policy was ever thought of. The reason why Rigs-to-Reefs 
is a success today is because stakeholders like me worked with 
the oil companies, worked with the Fisheries Service, worked 
with EPA, worked with a whole host of agencies to continue 
Rigs-to-Reefs so that we could have them there. The National 
Ocean Policy had nothing to do with that. That was a 
cooperative effort from the stakeholders in the Gulf of Mexico 
that saw the benefit of leaving platforms in the water; and if 
you couldn't leave it where it was, to move it someplace else 
so that you could enhance the habitat to create places for fish 
and corals to live.
    Dr. Lowenthal. Thank you, and I yield back.
    Dr. Fleming. Thank you.
    Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. I don't really have a 
lot of questions. I am interested in possibly learning why some 
states are left out of some of the regional planning efforts. 
For example, Washington State, when they have a huge watershed, 
but yet they are left out, and that is curious to me.
    Just two things. We, as a Nation, are gifted with abundant 
natural resources. And when we have ocean policies that begin 
furthering the restriction of access to those natural 
resources, we limit ourselves in the future of being able to 
meet our energy needs.
    We see ocean policies not necessarily exactly tied in with 
this, but we see ocean policies that limit seismic activity in 
areas like the South Atlantic, where we, as a Nation, can just 
discover what resources might be there. When we allow groups to 
use fear-mongering tactics that are not based on fact, such as 
Oceana, who claim that mammals are harmed by seismic, when 
there is not a single verifiable instance, and you go to BOEM's 
Web site and see they say that as well, even BOEM's experts. 
But yet the Administration will restrict the use of seismic in 
places like the South Atlantic, just so that we can find out 
what resources might be available for future exploration. I 
think it is very short-sighted as a Nation.
    The second thing is management. If we are talking about the 
health of the oceans with regard to nutrients, fertilizers, and 
what not that have washed in the ocean, places like the 
Louisiana Delta and Mississippi Delta that experience huge 
plumes in the ocean because there are a lot of nutrients out 
there now that flow down the Mississippi, we need to step back 
and ask why.
    Why that plume is further out in the ocean and why we see 
those nutrients further out in the ocean is because of past 
practices by the Corps of Engineers to levee, drain, and dredge 
certain areas along the Mississippi River. We need to realize 
that maybe mistakes were made in the past because the natural 
delta would allow that water to flow out and those nutrients 
that come down the river, whether they are natural nutrients or 
whether they are man-produced and applied, there is a natural 
filtration system in the marsh that takes those nutrients out 
before they reach the ocean. It creates a healthy marsh 
situation. Actually, it creates barrier islands and a marsh 
that helps lessen the impact of storms.
    But what we see is this huge plume out in the ocean of 
nutrients that have flowed down the Mississippi River and now 
travel further out to sea because of past mistakes by the Corps 
of Engineers. We need to make sure that we acknowledge that 
some of those practices we did in the past of leveeing up and 
dredging certain areas were wrong, and possibly step back and 
see what we can do.
    We have resources now, because of Deepwater Horizon, when 
Steve Scalise, the whip here, is focused on using some of that 
money to rebuild the barrier islands and address some of the 
canals and waterways that have been dredged in that area that 
have allowed this unencumbered flow of water directly out into 
the ocean. I don't know if that is what Mr. Graves is going to 
talk about when he gets on this subject, but it is something 
that I am aware of.
    And the point I wanted to make is maybe we should 
acknowledge past mistakes, and figure out how we can rectify 
the situation before we start imposing stricter and more 
stringent regulations on farming and the oceans themselves and 
what we do there.
    Mr. Chairman, I yield back.
    Dr. Fleming. The gentleman yields back.
    Mrs. Torres.
    Mrs. Torres. Thank you, Mr. Chairman.
    Mr. Lanard, many of my colleagues seem to prefer the use of 
the term ``ocean zoning'' to ``marine spatial planning.'' As 
someone who has participated in this process, can you explain 
the difference between zoning, as they would have us understand 
it, and spatial planning, as it was intended by the National 
Ocean Policy?
    Mr. Lanard. Sure. Zoning would be more of a regulatory 
requirement that would either allow certain activities or would 
restrict certain activities. Coastal marine spatial planning 
would suggest the best areas for the best uses, and it would 
come after a very deliberative process with all the different 
users in a region so that we can get to an area of common 
ground. That is the process.
    And Congresswoman, if I could just mention one thing about 
seismic to the Congressman who was concerned about seismic 
impact on marine mammals. We are an industry that will be 
creating noise in the ocean when we use fixed foundations into 
the sea bed and we do drilling. Our drilling does have the 
potential to impact marine mammals, particularly the North 
Atlantic right whale. So, we are willing to be carefully 
regulated, carefully monitored. We will have four or five 
protected species observers on every vessel we take out there 
to do any type of work during whale migration season. We are 
prepared to live by those regulations, because we think we make 
a greater contribution to the environment by reducing climate-
threatening carbon dioxide emissions.
    Mrs. Torres. As you stated, sir, in your testimony, the 
Department of the Interior now has a process for Federal waters 
called Smart-from-the-Start that incorporates principles of 
coastal and marine spatial planning in bringing stakeholders to 
the table to identify areas suitable for development of this 
resource.
    Is this type of planning component of the policies needed 
to make U.S. offshore wind competitive, globally?
    Mr. Lanard. Absolutely. There are 50,000 or so workers in 
the offshore wind industry in Europe, and we have almost none. 
Smart-from-the-Start, under Secretary Salazar, has really 
started to jumpstart this industry. You are going to see this 
summer five turbines spinning off the coast of Block Island, 
Rhode Island, and it is going to be a very national and 
newsworthy event. It is going to be a great visual, people are 
going to really be excited about this, and it is going to spur 
the interest in governors and states up and down the East and 
West Coast to look at this.
    Remember, other than pilot and demonstration projects, 
these facilities will be 15 to 20 miles offshore. So, you might 
see the very little tip of the blade, but you are not going to 
see the structures; and they are going to be spread out enough 
so that other uses can be applied.
    And to Captain Zales, we are also creating artificial reefs 
out there with our foundations that will serve as places for 
habitat.
    Mrs. Torres. Thank you. As an ocean user, can you please 
list the regulations and policies that have been forced upon 
your business because of the National Ocean Policy?
    Mr. Lanard. I can't.
    Mrs. Torres. Thank you. Mr. Chairman, I yield back.
    Dr. Fleming. Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman.
    Mr. Keppen, you were talking about the far-reaching effects 
here. Does that mean we won't be seeing any land sharks doing 
candygrams for horseradish growers in Newell, California any 
time soon, then?
    Mr. Keppen. Good one, Congressman LaMalfa.
    Mr. LaMalfa. Playing off your orca comments, you know.
    Mr. Keppen. Yes, that was a good one.
    Mr. LaMalfa. Yes, but seriously, folks, does this start 
reminding you of this policy, when you get to orcas or land 
sharks, of the Waters of the United States over-reach with the 
regulating down to a horseradish field or what have you, 200 
miles from the ocean? This is something we have had great 
concern about in this committee and my district, as well, that 
this NOP is starting to resemble the Waters of the United 
States ruling a little bit. Do you see parallels there?
    Mr. Keppen. Yes. Well, this one is a little more troubling, 
just from the standpoint that it is uncertain. The Clean Water 
Rule that the Administration put out was pretty detailed. We 
kind of knew what the impacts might be there.
    But I would say, generally, that is a concern that we have 
with a lot of these regulations, is just how is it going to 
impact--you have to kind of assume the worst, hope for the 
best.
    But with a lot of them, there is uncertainty. And just the 
cumulative impact and how it can affect the farmers, ranchers, 
and water users in so many different ways, that is the big 
concern. But I would say, in general, your observation is good. 
There are somewhat similar concerns that we have.
    Mr. LaMalfa. In the ballpark? So, the issue is--you have 
mentioned a couple of times--uncertainty. There is a lot of 
uncertainty with WOTUS, too. Like some of my ranchers, they 
can't plow, for example, without somebody coming down on them, 
thinking this is going to somehow change the hydrology, Clean 
Water Act, or what have you.
    When their own counsel says they will address questions or 
specifics as implementation progresses, this sounds like a 
make-it-up-as-you-go type thing, that we are going to put that 
out there and then figure out how to fill in the blanks later, 
as it affects people. Is that what you are picking up on this, 
as well?
    Mr. Keppen. That is a concern. And again, like with the 
Clean Water Act, I still think there is a lot of uncertainty 
associated with how tributaries are defined, and those sort of 
things. We were able to get some certainty on how ditches and 
O&M issues will be handled by irrigation districts, but there 
is a lot of uncertainty and we are not talking about just the 
Clean Water Act.
    There are land management issues. They talk about best 
management practices with this particular policy that bring to 
my mind what is going on with the Forest Service and their 
groundwater management proposal, their directive they put out 
here a year or two ago. It is pretty wide-ranging and 
uncertain.
    Mr. LaMalfa. So, to clarify for my own purposes here, we 
hear a lot about stakeholders. Has anyone from the National 
Ocean Council contacted the Family Farm Alliance to be part of 
a discussion or a stakeholder in this?
    Mr. Keppen. No.
    Mr. LaMalfa. Not yet. I mean if they are still talking 
about orcas in horseradish fields, basically, so to speak.
    All right. So, it is kind of the deal--again, coming back 
to the uncertainty, let's vote for it and then we can read it 
later? Yes. And it also reminds me of the parallels of the 
high-speed rail system in California. We have already spent 
billions, and they do not even have the route settled yet, or 
whether it is going to go through the mountains, heading into 
Southern California. You have billions of dollars on the line. 
And it looks like another example of government jumping out 
there, making a goal without talking to the people involved or 
without knowing what the effects are going to be.
    So, what message do you want us to hear from your growers, 
from your constituents? Bottom line for me, please, on what you 
all need.
    Mr. Keppen. Again, it is just this overwhelming sort of 
deluge of a lot of rulemaking that has happened in the last 
several years. We are still trying to process the impacts. We 
have not gotten answers back on some of the concerns that we 
have raised on many of these rulemaking efforts.
    And I think, as far as this particular policy goes, it is 
like what I said in our testimony, it would be nice to get a 
report, perhaps, from the individual agencies that are involved 
to say, ``Here is what has happened, here is what we see coming 
out of this.'' Until we get something like that, we ought to 
put a little bit of a pause on this program, which is something 
that we have asked for on other rulemaking processes that have 
happened over the last couple of years.
    Mr. LaMalfa. All right. Thank you.
    Mr. Lanard, will they be able to see any of the windmills 
from the Kennedy compound?
    Mr. Lanard. I guess it depends when Massachusetts decides 
to move forward with revenue streams for the different 
developers. There is going to be a very aggressive competition 
between four or five or six developers over the next year or 
two, and then we will see where they get located.
    Mr. LaMalfa. Awesome answer. Thank you.
    Dr. Fleming. The gentleman yields. We have been joined by 
Mr. Beyer, and I ask unanimous consent to allow Mr. Beyer to 
participate.
    [No response.]
    Dr. Fleming. Hearing no objection, I recognize Mr. Beyer 
for 5 minutes.
    Mr. Beyer. OK, thank you, Mr. Chairman, very much. I just 
want to be here today to speak and strongly defend our National 
Ocean Policy. Plain and simple, coordinated ocean planning is 
common sense and good economic policy for our coastal 
communities. It allows for a comprehensive mapping of existing 
ocean uses. It helps to identify and resolve conflicts between 
stakeholders before they play out in specific permitting 
processes.
    In Virginia, this process has been crucial to preserve 
public access to the ocean, to sustain economic growth, address 
marine debris, create migration corridors for marine mammals, 
and support promising new ocean industries such as wind power 
and marine aquaculture.
    I am proud to note that Virginia was selected by BOEM to be 
the first state in the Nation to receive a wind energy research 
lease in Federal waters.
    Ocean planning has a demonstrated record of reducing 
conflict for assisting wind developers, especially with the 
commercial fishing community, where prime fishing habitat is 
often an ideal location for wind turbines. Eliminating the 
National Ocean Policy would undermine regional collaborative 
efforts to manage existing and future ocean policy challenges.
    Let's not roll back the valuable work and resources that 
many states, industries, and communities have already devoted 
to implement this policy.
    The National Ocean Policy makes Federal agencies talk to 
each other and to the states about their ocean-related 
responsibilities, and requires them to work together to improve 
their job performance. We should be working with the National 
Ocean Policy to streamline Federal permitting, cut through 
bureaucratic red tape, and maximize the safety and economic 
productivity of our oceans and coasts.
    The National Ocean Policy is not a law. It is not a new 
regulation, and does not supercede state or local authority. 
All it does is coordinate ongoing Federal activities. The 
alternative is less coordination and less efficiency.
    If we want to run our government like a business, we should 
ask ourselves: Would you invest in a business where different 
departments don't talk to each other? Would you invest in a 
business that is not responsive to its shareholders? Would you 
invest in a business with no business plan? This is, 
essentially, what the National Ocean Policy is, a business plan 
for the ocean that seeks to maximize the benefits to the 
shareholders, the American people. The policy is a win-win-win 
for economic growth, public safety, and environmental 
protection.
    I do have one question, though, for Mr. Lanard. The 
opponents of coastal marine spatial planning claim that it is a 
threat to business and business interests. But in a letter sent 
to House leaders in March of this year, nearly 120 national, 
regional, and state conservation, recreation, and business 
groups expressed their support for regional ocean planning 
efforts that ``have emerged from the ground up with the roots 
in state-sponsored partnerships.''
    So, Mr. Lanard, should fishermen, farmers, and businessmen 
consider the National Ocean Policy and marine spatial planning 
a threat? Or should they consider it an opportunity to protect 
their interests and livelihoods?
    Mr. Lanard. Thank you for the question, Mr. Beyer. For the 
record, you and I have not met before, but I would like, with 
the Chairman's permission, to revise and extend my remarks and 
attach your statement to part of my testimony, because I agree 
with it verbatim. It was really well said, thank you.
    We have to work together. You said it in your comments. 
There are growing uses and growing demands on the ocean: 
military, commercial fishing, recreational fishing, energy, 
sand mining, oil and gas, offshore wind. We need to work 
together, or else we are not going to find common ground, and 
we are going to then pit developer against developer, industry 
against industry, and slow down everything. Nobody wins. You 
nailed it. It is a win-win-win.
    Mr. Beyer. Great. Thank you, Mr. Lanard.
    Mr. Chairman, I yield back.
    Dr. Fleming. The gentleman yields back. Mr. Graves is 
recognized.
    Mr. Graves. Thank you, Mr. Chairman.
    Mr. Lanard, I am curious. Have you had conversations with 
anyone from CEQ, or National Ocean Council in the past week and 
a half?
    Mr. Lanard. I have not spoken to CEQ or the National Ocean 
Council in about 4 years.
    Mr. Graves. In 4 years? No Federal officials?
    Mr. Lanard. Oh, yes, plenty of Federal officials.
    Mr. Graves. In the last week and a half, 2 weeks?
    Mr. Lanard. No oral communications with them. About this 
issue?
    Mr. Graves. Yes.
    Mr. Lanard. None. I talk regularly with the Bureau of Ocean 
Energy Management. I let them know I was testifying, but we 
have not spoken about it.
    Mr. Graves. Thank you. I want to follow up on Congressman 
Duncan's statement earlier. The Federal Government, through the 
U.S. Army Corps of Engineers--their actions in regard to the 
management of the river system in south Louisiana has largely 
resulted in the loss of about 1,900 square miles of coastal 
wetlands. That is some of the most productive ecosystem or 
habitat on the North American continent.
    As Congressman Duncan mentioned, the largest dead zone in 
North America is off the coast of Louisiana. Again, another 
issue where the Federal Government has a role and has a task 
force set up, and we have actually had a worsening dead zone, 
not an improvement. As Mr. Zales noted earlier, the Federal 
Government is also in charge of management of the red snapper 
fisheries, which has become a complete debacle--not de-
conflicted, but actually increased tension, conflict, and using 
poorer science than the states have.
    I am just curious. Why in the world would we want to bring 
the Federal Government and their record of success into an area 
that actually has an excellent record of managing resources for 
energy development, commercial and recreational fishing, and 
multiple other uses in the Gulf of Mexico? What benefit are we 
introducing by bringing them into this? Mr. Lanard?
    Mr. Lanard. They are already in. The regulations----
    Mr. Graves. Well, that is the problem, though. That is my 
point, that is the problem. The Federal Government is causing 
the problems, from an economic and from an environmental 
perspective. They are not improving it. So, why you would 
expand upon those failures. I have no idea.
    If someone in office or in business is not doing well, you 
do not give them additional responsibility, you get rid of 
them. That is what we are trying to do here.
    Mr. Zales, would you like to comment on that?
    Mr. Zales. [No response.]
    Mr. Graves. Would you like to comment?
    Mr. Zales. On why we would continue that?
    Mr. Graves. Yes.
    Mr. Zales. To be honest, like you, I don't know why. In the 
Gulf of Mexico, and my organization, we represent charterboat 
owners and operators across the country. But in the Gulf of 
Mexico, from my personal experience, there is coordination 
amongst agencies. There is involvement with stakeholders.
    I mean in my 25-plus years of involvement in the fishery 
management--what I call a game because it is kind of like it is 
played--I have been actively involved. A lot of my fellow 
fishermen have been actively involved. And things do not always 
turn out the way we necessarily want them, but we have impact, 
so we are able to mitigate some of the things that are there.
    In this current situation, I was one of 30 people who were 
first appointed to the Marine Protected Areas Federal Advisory 
Committee, which was created by an Executive Order, I think, in 
2000. That Executive Order was similar to this one, no 
regulatory impacts. Today, the marine protected area has a 
division within the National Marine Fisheries Service so they 
could set up marine protected areas. I was one of the 30 people 
who developed that plan.
    That unfunded mandate has evolved into a division of the 
National Marine Fisheries Service that regulates us, creates 
marine protected areas, and does everything that people are 
saying this National Ocean Policy will not do. Well, I am 
sorry, it is headed there.
    Mr. Graves. Yes. And I want to make one other note. Mr. 
Chairman, I am very disappointed the Administration has chosen 
to not respond to an invitation to come testify today. This 
entire effort in regard to the National Ocean Policy and 
coastal marine spatial planning initiative was billed as being 
a voluntary initiative. The Gulf of Mexico chose not to 
participate.
    And I will say again, we have some of the most robust 
commercial and recreational fishing in the Nation. We have the 
most robust offshore energy production in the Nation. We have 
the most robust maritime industry in the Nation, in the Gulf 
Coast. And we do not need to bring in the Federal Government's 
expertise in this case, because all they are doing is screwing 
things up, not improving upon it.
    Now, why would the Federal Government be naming officials 
to a Gulf Coast marine and spatial planning panel when the Gulf 
Coast chose to not participate in this ``voluntary effort'' ? I 
am really struggling. That does not sound like anything that is 
voluntary to me.
    Last, Mr. Zales, I just want to make note that the five 
Gulf states have come to an agreement on a management regime 
for the red snapper fishery. I know you have been in this 
committee before on this. Do you believe that that is a 
superior approach to continuing this trajectory we are on now 
with Federal management?
    Mr. Zales. No, sir. I fully support your bill that is there 
to give it over to the states, because it is clear to me the 
National Marine Fisheries Service is incapable of managing 
recreational fisheries.
    Mr. Graves. Thank you, Mr. Zales.
    Mr. Chairman, I yield back.
    Dr. Fleming. OK. Mr. Newhouse is recognized.
    Mr. Newhouse. Thank you, Mr. Chairman. I appreciate all of 
the panel members here this morning, on both sides of the 
issue. It is very informative and enlightening. I just wanted 
to make one comment about some of the things that I have heard 
from the dais today, about uncertainty as a Majority party 
tactic. I would just say, as a production farmer myself, and 
having had to live under an environment where there is 
uncertainty when it comes to expectations from government 
entities, there certainly is a cost to that. People are less 
likely to make investments to solve any particular problem when 
you don't know what policy or what regulation you are supposed 
to adhere to. When you serve more than one master, the result 
is nothing gets done. So, I think this uncertainty issue is 
real and is something that needs to be addressed.
    A question for you, Mr. Keppen, and thank you for being 
here. One of the core principles of the NOP, the ocean policy, 
is a government-wide fundamental shift to ecosystem-based 
management, at least as I understand it. While many questions 
on this implementation need to be answered of this policy, in 
your estimation how could this shift in resource management 
policy affect farmers such as in my state of Washington, but 
also across the United States?
    Mr. Keppen. Well, again, I kind of elaborated on it in my 
written testimony. The focus of these activities on the coast 
and in the ocean move inland using an ecosystem approach.
    For example, in the appendix there are at least two or 
three things that caught my eye in this plan that show that 
forest actions or farming actions are going to be looked at, as 
far as impacts on the ocean. Again, the national forest best 
management practices are listed in the appendix. Restoring 
wetlands and upland areas is another action that is listed. And 
then, studying impacts from land-based sources of pollution, 
those three things caught my attention and suggest that because 
you have this ecosystem-based approach, you can make those sort 
of ties to the ocean. So, folks far inland may not think that 
this will have an impact, but it could.
    Mr. Newhouse. Yes, but it will. Certainly those of us that 
depend on river systems, which, in my neck of the woods, we 
certainly do.
    Just last month, as you probably know, being a 
Northwesterner yourself, in an act of judicial over-reach, a 
U.S. district court judge handed down a ruling that upended 
salmon recovery efforts in the Pacific Northwest, which really 
put at risk hundreds of millions of dollars in investments by 
ratepayers on dam mitigation.
    This ruling already creates great uncertainty in the 
region. Coupled with the NOP, how might the planning bodies 
proposed under this NOP framework impact efforts in states like 
Washington and Oregon to ensure access to predictable and 
sufficient water supplies for irrigation, affordable energy 
through hydropower, and also for flood control?
    Mr. Keppen. As I recall, I think that the Pacific Northwest 
salmon recovery efforts were actually identified in the NOP as 
an example of sort of a collaborative success; but this recent 
court decision kind of shows it necessarily was not all 
collaborative and voluntary. There was a huge dollar impact 
associated with what is going on there.
    Like you said, the ratepayers have paid a lot. There have 
been biological opinions that drive how those dams in the 
Columbia operate, which has caused a huge impact, both to power 
generation and the ability to use water.
    But what has happened with this recent court decision that 
you talked about, the judge has said those actions apparently 
are not good enough, all those activities that have been 
undertaken are not good enough. So now, that is kind of 
providing fuel for the critics of the dams on the Snake River, 
in particular, to go after the dams as a possible solution to 
take care of the problem.
    The sort of things that are laid out in this NOP, again, 
may be providing the potential for more of those sorts of 
actions to occur in the future, which creates tremendous 
uncertainty for irrigators in the Northwest, in particular.
    Mr. Newhouse. Right. I see my time is just about to expire, 
so not enough time to ask a question. But thank you very much, 
all of you.
    Mr. Chairman.
    Dr. Fleming. The gentleman yields. I want to thank the 
panel. You have been very patient with us. We have had a lot of 
questions today, and I think it has been very productive. I 
want to thank you for your valuable testimony.
    Members of the subcommittee may have additional questions 
for the witnesses, and we would ask you to respond to these in 
writing. The hearing record will be open for 10 business days 
to receive these questions.
    If there is no further business, without objection the 
subcommittee stands adjourned.
    [Whereupon, at 11:38 a.m., the subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

 Prepared Statement of the Hon. Sam Farr, a Representative in Congress 
 from the State of California, in Support of the National Ocean Policy
    Our ocean economy generates $360 billion a year, and puts 3 million 
Americans to work in ocean-related industries such as shipping, marine 
construction, energy development, defense operations, commercial 
fishing, boating, aquaculture, and tourism. These jobs and the economic 
wealth the ocean generates are spread out all across the Nation, not 
just in coastal communities. With so many livelihoods dependent on the 
success of these numerous and disparate ocean-related industries, we 
should be embracing the National Ocean Policy, which is no more than a 
planning tool to reconcile and coordinate these activities.
    Let me set the record straight about several NOP ``myths.'' First 
of all, we spend absolutely no money on ocean planning. NOP does not 
cost the government anything and it does not alter any Federal, state, 
or local government authorities. What it does is spur economic growth 
and helps create jobs. In the Northeast, stakeholders in offshore wind 
development, infrastructure projects, and the first-ever offshore 
mussel aquaculture facility utilized the tools of the NOP to leverage 
millions of dollars of private investment and create jobs.
    Secondly, I want to emphasize that the NOP does not supersede any 
local or state regulations, or create any new Federal regulations, 
despite what its critics suggest. The fundamental role of the NOP is to 
create a mechanism by which the 41 ocean agencies, departments, working 
groups and committees can coordinate and communicate to manage more 
efficiently.
    This results in ``ground up''--not ``top down''--opportunities for 
locals to have input to local and regional resource management 
policies. In so doing, not only does the NOP provide greater local say 
in management, but it also results in a stronger return on investment 
of taxpayer resources by reducing duplication between agencies, 
increasing coordination, and streamlining the data collection and 
public involvement that informs decisionmaking.
    I urge the subcommittee to step away from the anti-NOP generated 
talking points and actually read the Executive Order. Without our 
inherent biases, each of you should come to the same conclusion that I 
know to be true: the National Ocean Policy is a tool for planning, not 
a mandate that strips local and stakeholder control of our ocean's 
resources.

    Thank you for allowing me to submit testimony.

                                 ______
                                 

                    National Ocean Policy Coalition

                                                       May 31, 2016

Hon. John Fleming, Chairman,
House Subcommittee on Water, Power and Oceans,
1324 Longworth House Office Building,
Washington, DC 20515.

Re: May 17, 2016 Oversight Hearing on ``Implications of President 
        Obama's National Ocean Policy''

    Dear Chairman Fleming:

    On behalf of the National Ocean Policy Coalition (Coalition), thank 
you for convening an oversight hearing to address implementation of the 
National Ocean Policy (NOP).
    Established in 2010, the Coalition is an organization of diverse 
interests representing sectors and entities that support tens of 
millions of jobs, contribute trillions of dollars to the U.S. economy, 
and seek to ensure that actions under the NOP are implemented in a 
manner that best benefits the National interest, including protection 
of the commercial and recreational value of the oceans, marine-related 
natural resources, and terrestrial lands of the United States.
    Since its creation by Executive Order in July 2010, uncertainty and 
the potential for negative impacts to result from NOP implementation 
have continued to increase, and have already resulted in new burdens, 
regulatory overlays, and governmental bodies such as the National Ocean 
Council and Regional Planning Bodies (RPBs) with which regulated 
entities must contend. Just months after its issuance, the NOP 
Executive Order was cited in an Interior Department statement 
announcing the prohibition of potential conventional energy leasing in 
new areas through 2017.
    Two of the policy's most troubling aspects, both of which could 
also impact inland activities, are its coastal and marine spatial 
planning (CMSP) initiative--likened by several federal agencies to 
ocean zoning--and its ecosystem-based management (EBM) component, which 
requires the federal government to make a ``fundamental shift'' in how 
it manages ocean, coastal, and Great Lakes resources.
    CMSP has been portrayed as voluntary and as simply a means to 
improve communication and coordination across agencies. In reality, the 
NOP and documents developed in support of regional marine plans clearly 
indicate otherwise.
    Regulatory impacts are certain to result from CMSP implementation 
by virtue of the requirement that federal agencies comply with regional 
marine plans to the maximum extent (including through regulations where 
necessary), which also introduces the potential for conflicts between 
unauthorized marine plans and plans and decisions made under 
statutorily-authorized and mandated processes. Actions expected to be 
included in the final Northeast and Mid-Atlantic marine plans include 
federal commitments to use and apply newly-developed maps of ``core 
areas'' and ``hot spots'' in agency decision-making activities. 
Concerns over CMSP are underscored by the promotion of certain uses and 
resources over others, and the fact that critical details on how 
agencies specifically intend to implement regional marine plans in 
their decision-making activities remain unknown and may not be 
disclosed until after public review periods conclude.
    In addition, the NOP Implementation Plan makes clear that federal 
agencies are to engage in marine planning even if all states in a 
region decide not to participate. Yet, six years after the Executive 
Order was issued, scant information exists about what actions federal 
agencies have taken over the last six years to implement marine 
planning in such regions, which include the Gulf of Mexico, South 
Atlantic, Alaska, and the Great Lakes.
    Significant concerns also exist regarding the NOP requirement that 
federal agencies implement EBM, including through the incorporation of 
EBM into environmental review and planning processes by 2016. In 
addition to creating unknown impacts on well-known and statutorily-
guided processes and the economic activities that they govern, given 
the current state of EBM science and technology, imposition of such an 
artificial deadline increases the risk that this requirement will lead 
to decisions that lack a proper scientific foundation.
    Moreover, although Congress has not authorized or appropriated 
funds for this initiative, entities across the federal government have 
devoted significant time and undetermined amounts of resources toward 
NOP implementation, with unknown impacts on agency budgets and 
missions. This raises important questions about how regulated 
industries are being affected by potential diversions of funds and 
resources away from authorized and mandated activities.
    Finally, concerns about the impact of NOP implementation on 
economic and societal interests have been heightened by deficiencies in 
transparency and user group engagement, highlighted in part by 
inadequate review opportunities and the imposition of deadlines that 
are limiting the ability to provide informed input on the development 
of the first regional marine plans. All the while, in addition to being 
excluded from directly participating on RPBs tasked with developing 
marine plans, the RPBs established so far have declined requests to 
establish formal advisory committees for user groups to provide advice 
and guidance, even though such committees are explicitly authorized 
under the NOP Executive Order.
    For all these reasons, the Coalition appreciates your efforts to 
shine more light on NOP implementation and address the many questions 
that remain unresolved.

            Sincerely,

                                           John M. Belcher,
                                                 Managing Director.

                                 ______
                                 

                      RESOURCE DEVELOPMENT COUNCIL,
                                          Anchorage, Alaska

                                                       May 13, 2016

Hon. John Fleming, Chairman,
House Subcommittee on Water, Power and Oceans,
1324 Longworth House Office Building,
Washington, DC 20515.

Re: Oversight Hearing on National Ocean Policy

    Dear Chairman Fleming:

    The Resource Development Council for Alaska, Inc. (RDC) is writing 
to thank the Subcommittee for holding an oversight hearing on National 
Ocean Policy and to provide our member's perspective on the policy.
    RDC is an Alaskan non-profit, membership-funded organization 
founded in 1975. Our membership is comprised of individuals and 
companies from Alaska's oil and gas, mining, timber, tourism, and 
fisheries industries, as well as Alaska Native corporations, local 
communities, organized labor, and industry support firms. RDC's purpose 
is to link these diverse interests together to encourage a strong, 
diversified private sector in Alaska and expand the state's economic 
base through the responsible development of our natural resources.
    With 34,000 miles of coastline, 3,000 miles of rivers, and over 
three million lakes, Alaska has a significant stake in National Ocean 
Policy, and will be impacted more than other states by it.
    Alaska has seen significant federal overreach that RDC has long 
opposed, including the introduction of a National Ocean Policy (NOP). 
Alaska has been under assault from numerous regulatory headwinds that 
have negatively impacted our resource development industries, and our 
energy sector in particular.
    RDC is very concerned NOP is another layer of unnecessary 
bureaucracy and a potential obstacle our private sector will be forced 
to face at a time when strengthening our economy through responsible 
resource development is our top priority.
    Federal agencies have already begun taking steps to implement 
actions tied to this policy that could negatively impact the Alaskan 
economy, such as Integrated Arctic Management and Ecosystem-Based 
Management requirements.
    While marine planning is required in every region, including 
Alaska, Alaskans have no information as to what marine planning actions 
federal agencies have taken or plan to carry out in our state.
    Additionally, the geographic coverage of Coastal and Marine Spatial 
Planning will include inland bays and estuaries, and upland areas as 
deemed appropriate by Regional Planning Bodies established to create 
these plans. There are additional concerns with federal entities 
setting ocean management priorities associated with marine planning, 
especially in regions like Alaska that choose not to participate.
    This policy, and its marine planning and ecosystem-based management 
components in particular, is not something Alaska wants or needs, and 
it should not be forced upon us. These federal efforts cause further 
uncertainty, especially in Alaska where geographical and harsh climate 
conditions already result in higher costs for projects.
    Further, RDC is concerned coastal and rural Alaskan communities may 
become financially devastated by National Ocean Policy implementation. 
The devastation of rural communities will likely result in outmigration 
of indigenous people, and the loss of culture and traditional 
lifestyles.
    Thank you for your consideration of RDC's perspective.

            Respectfully,

                                            Marleanna Hall,
                                                Executive Director.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
